<html>
<title> - HEARING TO REVIEW THE IMPLEMENTATION OF SECTION 4022 OF THE AGRICULTURAL ACT OF 2014: PILOT PROJECTS TO REDUCE DEPENDENCY AND INCREASE WORK REQUIREMENTS AND WORK EFFORTS UNDER THE SUPPLEMENTAL NUTRITION ASSISTANCE PROGRAM</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 
                         HEARING TO REVIEW THE
                 IMPLEMENTATION OF SECTION 4022 OF THE
   AGRICULTURAL ACT OF 2014: PILOT PROJECTS TO REDUCE DEPENDENCY AND
   INCREASE WORK REQUIREMENTS AND WORK EFFORTS UNDER THE SUPPLEMENTAL
                      NUTRITION ASSISTANCE PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 17, 2014

                               __________

                           Serial No. 113-22


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]		


                        Available at http://www.fdsys.gov/
                        
                               _____________
                               
                  U.S. GOVERNMENT PRINTIN OFFICE
89-880 PDF              WASHINGTON : 2014                  

_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Printing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6e091e012e0d1b1d1a060b021e400d010340">[email&#160;protected]</a>  








                        COMMITTEE ON AGRICULTURE

                   FRANK D. LUCAS, Oklahoma, Chairman

BOB GOODLATTE, Virginia,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
STEVE KING, Iowa                     MIKE McINTYRE, North Carolina
RANDY NEUGEBAUER, Texas              DAVID SCOTT, Georgia
MIKE ROGERS, Alabama                 JIM COSTA, California
K. MICHAEL CONAWAY, Texas            TIMOTHY J. WALZ, Minnesota
GLENN THOMPSON, Pennsylvania         KURT SCHRADER, Oregon
BOB GIBBS, Ohio                      MARCIA L. FUDGE, Ohio
AUSTIN SCOTT, Georgia                JAMES P. McGOVERN, Massachusetts
SCOTT R. TIPTON, Colorado            SUZAN K. DelBENE, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  GLORIA NEGRETE McLEOD, California
SCOTT DesJARLAIS, Tennessee          FILEMON VELA, Texas
CHRISTOPHER P. GIBSON, New York      MICHELLE LUJAN GRISHAM, New Mexico
VICKY HARTZLER, Missouri             ANN M. KUSTER, New Hampshire
REID J. RIBBLE, Wisconsin            RICHARD M. NOLAN, Minnesota
KRISTI L. NOEM, South Dakota         PETE P. GALLEGO, Texas
DAN BENISHEK, Michigan               WILLIAM L. ENYART, Illinois
JEFF DENHAM, California              JUAN VARGAS, California
STEPHEN LEE FINCHER, Tennessee       CHERI BUSTOS, Illinois
DOUG LaMALFA, California             SEAN PATRICK MALONEY, New York
RICHARD HUDSON, North Carolina       JOE COURTNEY, Connecticut
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
CHRIS COLLINS, New York
TED S. YOHO, Florida
VANCE M. McALLISTER, Louisiana

                                 ______

                      Nicole Scott, Staff Director

                     Kevin J. Kramp, Chief Counsel

                 Tamara Hinton, Communications Director

                Robert L. Larew, Minority Staff Director

                                  (ii)
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Lucas, Hon. Frank D., a Representative in Congress from Oklahoma, 
  opening statement..............................................     1
    Prepared statement...........................................     3
McGovern, Hon. James P., a Representative in Congress from 
  Massachusetts, submitted statement.............................     5
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................     4

                                Witness

Vilsack, Hon. Thomas ``Tom'' J., Secretary, U.S. Department of 
  Agriculture, Washington, D.C...................................     5
    Prepared statement...........................................     7
    Submitted questions..........................................    39

                           Submitted Material

Southerland II, Hon. Steve, a Representative in Congress from 
  Florida, submitted statement...................................    39



                        HEARING TO REVIEW THE
                 IMPLEMENTATION OF SECTION 4022 OF THE



     AGRICULTURAL ACT OF 2014: PILOT PROJECTS TO REDUCE DEPENDENCY



 AND INCREASE WORK REQUIREMENTS AND WORK EFFORTS UNDER THE SUPPLEMENTAL



                      NUTRITION ASSISTANCE PROGRAM

                              ----------                              


                     WEDNESDAY, SEPTEMBER 17, 2014

                          House of Representatives,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 10:03 a.m., in Room 
1300 of the Longworth House Office Building, Hon. Frank D. 
Lucas [Chairman of the Committee] presiding.
    Members present: Representatives Lucas, Goodlatte, King, 
Neugebauer, Rogers, Conaway, Gibbs, Austin Scott of Georgia, 
Tipton, Crawford, Hartzler, Noem, LaMalfa, Davis, Yoho, 
Peterson, David Scott of Georgia, Costa, Walz, Schrader, Fudge, 
McGovern, DelBene, Negrete McLeod, Vela, Lujan Grisham, Kuster, 
Nolan, Enyart, Bustos, and Courtney.
    Staff present: Josh Mathis, Kevin Kramp, Mary Nowak, Nicole 
Scott, Tamara Hinton, John Konya, Andy Baker, Evan Jurkovich, 
Lisa Shelton, Liz Friedlander, Matthew MacKenzie, Robert L. 
Larew, and Riley Pagett,

 OPENING STATEMENT OF HON. FRANK D. LUCAS, A REPRESENTATIVE IN 
                     CONGRESS FROM OKLAHOMA

    The Chairman. This full Committee hearing will come to 
order. Good morning. Today we are here to discuss the 
implementation of the Supplemental Nutrition Assistance Program 
work pilots that are a part of the Agricultural Act of 2014. We 
appreciate the participation of Secretary Vilsack who is with 
us to discuss these efforts to date. We can all agree on one 
thing: We want to help the economy where Americans are working 
and earning a sustainable wage to support their families. Short 
of that ideal, we want to help Americans get back to work.
    In the period between 2008 and 2014 Farm Bills, we saw our 
economy experience a significant recession. We watched as our 
nation's safety net was pushed to its extremes, reaching record 
levels across a number of government programs, including SNAP.
    Today we are still experiencing what some have described as 
the worst recovery ever because in no other recession did it 
take this long to recover lost jobs. Some progress has been 
made. The unemployment rate is down from its peak of ten 
percent in October of 2009 to the more recent report of 6.1 
percent. However, we have only seen a small decrease in the 
number of SNAP participants.
    We know that many families on SNAP are working, but there 
are others who have not been able to find employment or earn 
enough to no longer require Federal food assistance.
    The pilot projects we are talking about today are a 
response to that need, incorporating multiple provisions 
initially contained in the House-passed farm bill. The 
Agricultural Act provides for up to ten states with up to $200 
million to operate pilot projects designed to help SNAP 
recipients prepare for and to go to work. The law explains that 
the approved pilot projects must cover a range of geographic 
areas, include a mix of voluntary and mandatory participation 
and include an assortment of methods designed to promote work.
    The point of the pilots covering a range of strategies each 
within a rigorous evaluation is to ensure Congress has the 
necessary information to make informed decisions about how to 
help SNAP recipients in the future.
    For example, through experimentation in cash welfare, we 
have learned the success of Work First Programs. These programs 
are designed to get individuals into work as soon as possible 
and offer them additional training so they can improve their 
earnings. We expect these sorts of proven Work First Programs 
to be among the pilot projects that are approved.
    On August 25, USDA released the request for applications 
and requests for proposals for the SNAP work pilots setting 
into motion the next phase of implementation. I am pleased the 
Department has done significant outreach to the states. I look 
forward to hearing about USDA's efforts to meet the 
requirements of the legislation. And again, I appreciate the 
Secretary being here today to provide clarifications and 
additional information on the work we have done and will 
continue to do as these pilots operate over the next 3 years.
    And now before I yield to the Ranking Member for any 
remarks he might have, I would once again indulge him as he 
used to indulge me when I was the Ranking Member starting 6 
years ago almost and now in my 10 years as Chairman for a 
personal thought. This may well be the last full Committee 
hearing, may well be the last full Committee hearing we have in 
the 113th Session of Congress, and under House Republican 
rules, when we reconvene in the 114th, most assuredly there 
will be new leadership on my side of the room.
    So I would like to take a moment to thank the Secretary 
first for the help that he provided in some of the most 
critical parts of developing the 2012, then the 2013, then the 
2014 Farm Bill that ultimately became the Agricultural Act of 
2014. Outside of this room, very few people thought we could 
get our work done. Very few people as the years rolled along 
held out much hope or expectation that we would accomplish our 
assignment. And the Secretary's part in that, I very much 
appreciate, Mr. Secretary.
    And I would also say to the Ranking Member, having been 
your--I guess the term is co-pilot for 2 years and now having 
had your assistance for the last 4 years, I think it can be 
fairly said that the Committee itself rose to the occasion and 
worked in a fashion that accomplished what we needed to do. And 
I very much appreciate the Ranking Member for that. And I would 
say to the Members on both sides of the aisle as I have said 
before many times, good people of different opinions working to 
try to achieve the common goal is still what this legislative 
body should be all about. Over the course of those 2\1/2\ years 
of legislating we did that.
    Now, the folks who will sit at this table next session will 
continue the process of implementation and working with you, 
Mr. Secretary. But I do want to express my appreciation to all 
of you and to note that whatever may happen next year, I intend 
to continue to work with everyone to try and make sure we have 
the right agricultural policies for all the good citizens.
    [The prepared statement of Mr. Lucas follows:]

Prepared Statement of Hon. Frank D. Lucas, a Representative in Congress 
                             from Oklahoma
    Good morning.
    Today we are here to discuss the implementation of the Supplemental 
Nutrition Assistance Program work pilots that are a part of the 
Agricultural Act of 2014.
    We appreciate the participation of Secretary Vilsack who is with us 
to discuss these efforts to date.
    We can all agree on one thing: we want a healthy economy where 
Americans are working and earning a sustainable wage to support their 
families. Short of that ideal, we want to help Americans get back to 
work.
    In the period between the 2008 and the 2014 Farm Bills, we saw our 
economy experience a significant recession. We watched as our nation's 
safety net was pushed to its extremes, reaching record levels across a 
number of government programs, including SNAP. Today, we are still 
experiencing what some have described as the ``worst recovery ever'' 
because in no other recession did it take this long to recover lost 
jobs.
    Some progress has been made; the unemployment rate is down from its 
peak of ten percent in October 2009 to the most recent report of 6.1 
percent. However, we have only seen a small decrease in the number of 
SNAP participants. We know that many families on SNAP are working, but 
there are others who have not been able to find employment or earn 
enough to no longer require Federal food assistance.
    The work pilots we will be talking about today are a response to 
that need, incorporating multiple provisions initially contained in the 
House-passed farm bill.
    The Agricultural Act provides up to ten states, with up to $200 
million, to operate pilot projects designed to help SNAP recipients 
prepare for and go to work. The law explains that the approved pilot 
projects must cover a range of geographic areas, include a mix of 
voluntary and mandatory participation, and include an assortment of 
methods designed to promote work.
    The point of the pilots covering a range of strategies, each with a 
rigorous evaluation, is to ensure Congress has the necessary 
information to make informed decisions about how to help SNAP 
recipients in the future. For example, through experimentation in cash 
welfare, we have learned of the success of ``work first'' programs. 
These programs are designed to get individuals into work as soon as 
possible and then offer additional training so they can improve their 
earnings. We expect these sorts of proven ``work first'' programs to be 
among the pilot projects that are approved.
    On August 25th, USDA released the Request for Applications and 
Request for Proposals for the SNAP work pilots setting into motion the 
next phase of implementation. I am pleased that the Department has done 
significant outreach to states. I look forward to hearing more about 
USDA's efforts to meet the requirements of the legislation.
    Again, I appreciate the Secretary being here today to provide 
clarifications and additional information on the work they have done 
and will continue to do as these pilots operate over the next 3 years.
    I will now yield to Ranking Member Peterson for any remarks he may 
have.

    The Chairman. With that, I would yield to the Ranking 
Member for any remarks he may have.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman, and I want to 
commend you for the outstanding job that you did leading us 
through this process. I am proud of what we have been able to 
accomplish here and the way we have been able to work together 
to make things happen. And thank God we got the bill done when 
we did because if we were trying to struggle with it now, it 
would probably never happen.
    I recently was at a meeting and heard a lot of complaining 
about how we couldn't get anything done and how screwed up 
everything was up here and so forth, which I agree with. And I 
said, what needs to happen out there is that they need to just 
let the Agriculture Committee be in charge of getting this 
government straightened out, and we will make it happen. And I 
really believe that we could do that, because we know how to 
work together, and we know how to sit down and figure out what 
both sides need and can live with. Our colleagues on some of 
these other committees could learn a valuable lesson from the 
Agriculture Committee. And so I commend all of my colleagues 
for their work and especially the Chairman for leading us. I am 
not a big fan of these term limits myself, but that is not my 
business. So I am on your side.
    Also, I want to thank the Secretary. He has done a great 
job over at the Department for the years that he has been 
there. He was very helpful during the farm bill. He was there 
to help when he could help, and he stayed out of the way when 
that needed to happen. And that didn't always happen in the 
past. You have been a great ally to work with, it has been 
helpful to the Committee. Thank you for your leadership at the 
Department and for the people at the Department for the work 
that they have done to help us and our staffs. I also want to 
say that our staffs are part of the reason that we are 
successful. Not only can we work together, our staffs have been 
able to work together, and that doesn't happen in some of the 
other committees, either.
    So that said, I welcome the Secretary here. And these work 
pilot programs that we are looking at today are an example of 
the bipartisan cooperative work that the Agriculture Committee 
does so well. We authorized these pilot projects because we 
value work, and we want to put people back to work. The farm 
bill invested $200 million to develop and improve innovative 
approaches to SNAP employment and training. The bill provides 
USDA with a clear direction for implementing these pilots and 
ensures that funding will create sustainable jobs by requiring 
reporting on set performance goals.
    Keeping a close eye on USDA's farm bill implementation 
should be one of this Committee's top priorities, and it is. As 
for the job the Secretary and the Department are doing in 
implementing the bill, I have been around here to watch 
implementations, and this is the quickest, most focused 
implementation that I have ever seen. So we appreciate what you 
are doing.
    As I understand it, the Department is still awaiting work 
pilot project applications. So I wonder if we might be getting 
a bit ahead of ourselves here today. But of course, it is 
always good to keep educating ourselves, particularly when it 
comes to SNAP, and I do hope that we can keep the focus on 
education and oversight and resist some of these outside 
pressures I hear about to making changes. It is just not 
realistic. Some people talk about opening up the bill and make 
changes. That isn't going to happen, and if it ever did, it 
would be a recipe for disaster.
    We need to keep working on oversight and working with the 
Department.
    So, I thank the Chairman for holding today's hearing and 
look forward to the Secretary's testimony.
    The Chairman. I thank the Ranking Member. The chair would 
request that other Members submit their opening statements for 
the record so that the witness may begin his testimony and to 
ensure that there is ample time for his responses.
    [The prepared statement of Mr. McGovern follows:]

   Prepared Statement of Hon. James P. McGovern, a Representative in 
                      Congress from Massachusetts
    Secretary Vilsack, thank you for being with us today for this 
hearing. I'll start by saying that it's premature for us to even be 
having today's hearing. USDA just put out a request for applications 
for the pilot projects on August 25th and the final deadline for 
submission isn't until the end of November. So, we really have nothing 
new to evaluate on work pilots.
    I sincerely hope that today's hearing isn't just another 
opportunity for some on this Committee to publicly bash SNAP and the 
people who rely on this program to eat. I know it's a popular punching 
bag, especially as we get closer to Election Day.
    Let me remind everyone here of some of the facts. There are 49 
million people in this country--the richest country in the history of 
the world--who are hungry. Nearly 16 million are children.
    And, the overwhelming majority of SNAP recipients who can work do. 
Let's keep in mind that nearly 70 percent of SNAP recipients are not 
expected to work because they are either elderly, disabled or children.
    Yesterday, we learned that the poverty rate fell slightly in 2013 
to 14.5 percent. That's a good thing. But, while our economy is slowly 
recovering from the Great Recession, we know, however, that economic 
gains haven't been even across all segments of the population. Wages 
have risen much more slowly or--even stagnated--for low and middle 
income workers.
    These are the same families who are working but who earn so little 
that they still qualify for SNAP.
    And, even though our economic recovery has been slow and uneven, 
CBO projects that the number of SNAP recipients will continue to fall 
in the coming years as our economy improves.
    Like other Members of the Committee, I'm very interested in seeing 
what we learn from these pilots. But, it's important to focus on the 
big picture of how to help SNAP recipients increase their earnings. We 
need to grow our overall economy and make sure that economic gains 
benefit all workers.
    If we grow this economy, create good jobs, and reduce unemployment, 
won't many SNAP households leave the program because they are better 
off? And, those who remain will have more employment and income?

    The Chairman. With that, I would like to welcome to the 
witness table the Honorable Tom Vilsack, Secretary of the U.S. 
Department of Agriculture. Mr. Secretary, please begin when you 
are ready.

 STATEMENT OF HON. THOMAS ``TOM'' J. VILSACK, SECRETARY, U.S. 
          DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C.

    Secretary Vilsack. Mr. Chairman, thank you very much, and I 
want to thank you and Representative Peterson for acknowledging 
the important and good work that USDA staff has been doing on 
the implementation of this farm bill, and we really welcome the 
opportunity to speak to the Committee today on the status of 
the pilot programs to improve our efforts to link those on SNAP 
who are looking for work to get a job and those who have a job, 
perhaps, to get an even better job, ultimately designed to 
reduce the reliance and need for SNAP for those families.
    I would be remiss if I didn't echo the comments of the 
Chairman and the Ranking Member in expressing my thanks to the 
Chairman and the Ranking Member for their great leadership in 
getting the farm bill through the process and for this 
Committee's work in making sure that it happened. This is a 
bill that I think all of you can justifiably be proud of having 
passed. We are taking very seriously our responsibility to 
implement this bill. We have, as you well know, implemented our 
Disaster Assistance Program: 262,000 producers have already 
received assistance, over $2.6 billion. We are excited about 
the new conservation programs, the RCPP Program and the new 
easement program. The research foundation has been launched. We 
have STAX and SCO out. We are working on the dairy program and 
making sure folks understand how to sign up for that, and we 
anticipate and expect very soon to have information about ARC 
and PLC out to the countryside.
    So this is a bill that you all can be extraordinarily proud 
of, and obviously, it would not have happened without strong 
leadership from the Chairman and the Ranking Member and Members 
of this Committee. So I am honored to be a part of this 
process.
    And we are excited about the work on the E&T Program. There 
are roughly five million able-bodied recipients without 
dependents who are currently receiving SNAP, Mr. Chairman, and 
a good amount of the $200 million that you all have allocated 
for this effort needs to be directed at trying to find 
opportunities for those individuals.
    We are going to take a diverse approach as you have 
requested and suggested and directed. We are going to look at 
demand-driven job opportunities. We are going to look at 
registered apprenticeships, career pathways. We are going to 
look at the barriers that may exist from job search skills to 
basic skills. We will indeed be geographically diverse in our 
approach.
    The goal is to find jobs for those who want jobs and need 
jobs and are without jobs and to find better jobs for those who 
are currently working. Thirty-one percent of SNAP households 
have some form of earnings. So obviously, there is still an 
opportunity there as well.
    There will be a strong evaluation component as you have 
proposed, and there is significant accountability, and we 
welcome the oversight of this Committee. It is an important 
responsibility that you have, and it is an important 
responsibility that we have.
    This effort will be collaborative. We will be working with 
state and local governments, nonprofit organizations in an 
effort to try to make this work, to try to find the best 
possible practices that can then be used to encourage other 
states to embrace these best practices.
    There will be a strong outreach effort as there has already 
been. I am making calls to governors personally to let them 
know about this program. We will have a webinar on September 24 
which is 2 days before the Letter of Intent deadline of 
September 26. Applications will be due on November 24, and 
awards are likely to be made on February 23, 2015.
    We look at a program that frankly, in the employment and 
training area, needs more focus, and the great thing about what 
you all have done is it has given us an opportunity to 
encourage states to do an even better job. Frankly we are still 
leaving resources on the table, and we are not as aggressive as 
we need to be, and this E&T Program will allow us to be more 
aggressive.
    SNAP numbers are coming down, which is good. It is an 
effective tool to reduce poverty. We know that as a result of 
SNAP seven million fewer people are below the poverty line. We 
know that \2/3\ of those receiving SNAP are children, senior 
citizens, and adults with disabilities, and seven percent are 
veterans, and we have the lowest fraud and error rate in the 
history of the program.
    So we are excited about this opportunity, and again, I want 
to extend my personal thanks to the Chairman for his 
friendship, direction, and counsel in terms of the farm bill 
and to the Ranking Member as well. I have enjoyed working with 
both of you, and I look forward to continuing to work with this 
great Committee. You have many reasons to be proud of this farm 
bill.
    [The prepared statement of Mr. Vilsack follows:]

 Prepared Statement of Hon. Thomas ``Tom'' J. Vilsack, Secretary, U.S. 
              Department of Agriculture, Washington, D.C.
    Thank you, Mr. Chairman, and Members of the Committee, for the 
chance to present to you on the important opportunity provided in 
Section 4022 of the Agricultural Act of 2014, relating to state pilot 
projects to reduce dependency and increase work effort under the 
Supplemental Nutrition Assistance Program (SNAP).
    Public debate about the issue of work and its relationship to 
Federal assistance can be contentious, with strongly-held and widely 
divergent viewpoints. But there is much we can agree on. I believe we 
would all agree that working can make a huge difference to people--
meaningful work with meaningful pay has a positive impact on 
individuals, their families, their communities. We want to provide a 
safety net so that those who are in tough economic circumstances are 
able to put food on the table; at the same time, we also want to help 
people move towards self-sufficiency the right way--by helping them to 
secure and maintain jobs that pay well. These pilot projects offer us 
the chance to partner with states to develop and test strategies to 
help SNAP participants find jobs and increase their earnings.
    On August 25, 2014, I announced $200 million for up to ten, 3 year 
SNAP employment and training pilot projects, along with a rigorous 
independent evaluation of those projects. We at USDA see the pilots, 
which were authorized and funded under the new farm bill, as an 
important step in building on our current work helping to move people 
towards self-sufficiency through gainful employment. Towards that end, 
we are looking for a robust set of proposals from states that test a 
wide range of strategies, including targeting individuals with low-
skills and major barriers, participants who are currently working in 
low-wage or part time jobs, and able-bodied adults without dependents 
(ABAWDs). As a whole, we intend to test pilots in both urban and rural 
settings, test a variety of approaches such as education, 
rehabilitative services, and rapid attachment to work, as well as both 
mandatory and voluntary participation in E&T activities. We want to 
test approaches that have shown promise with other populations, such as 
work-based learning strategies like pre-apprenticeship programs that 
lead to Registered Apprenticeship programs, and career pathway systems 
that include accelerated learning. We are also interested in testing 
programs that integrate basic education with on-the-job training. 
Importantly, we expect to see collaboration within state governments--
human services agencies, workforce development agencies, and economic 
development agencies, working together as part of this effort. These 
partnerships will be critical to connecting participants and training 
programs with in-demand jobs and careers. To help connect SNAP 
participants with and prepare them for available employment 
opportunities, we also incorporated elements of the job-driven 
checklist-laid out in Vice President Biden's ``Ready to Work'' job-
driven training report--into the selection criteria.
    A critical component of these pilots will be to rigorously evaluate 
the effectiveness of various practices, which will inform program 
implementation across the country. We hope to find and evaluate 
strategies that work in rural communities, as well as in urban 
settings. We need to know which populations may respond to lighter-
touch interventions, compared to those who may require more extensive 
services to be successful. In short--we need to know what works, how it 
works, who it works for, where it works--we need to know the results of 
these projects so that we can use this knowledge to better support work 
through SNAP Employment & Training programs across the country.
    This is an exciting opportunity, but these pilots are just one 
tool. I would like to take a moment to talk about the existing, core 
SNAP Employment and Training Program and my commitment to helping 
states improve and enhance SNAP E&T programs in order to respond to the 
needs of SNAP participants, in part by considering the needs of 
employers. SNAP participants are an extremely diverse group, and so, a 
diversity of approaches is needed. Most SNAP participants who can work 
already do work, but may need additional skills or experience to help 
them get or keep good jobs. Others were recently employed, but have 
lost their jobs--they may need help to get back on their feet. Still 
others have been out of the workforce for a number of years--these 
people tend to face the most significant barriers to employment, 
including low educational attainment, homelessness, substance abuse 
issues, and mental health concerns. Some are veterans, looking for 
employment now that they have returned home from serving their country.
    As you may know, with the exception of exempt populations including 
children, the elderly, individuals with disabilities, and individuals 
caring for young children, all SNAP recipients are subject to work 
requirements such as registering for work, taking a job if offered, not 
quitting a job without good cause, and participating in an E&T program 
component if mandated by the state. While USDA provides $90 million in 
100 percent Federal funds to states annually, and also reimburses 
states 50 percent for additional spending on E&T activities, some 
states do not spend their full allocation, and five states draw down 
the bulk of the 50/50 funding. I have made the use of these funds a 
priority, and have urged state agencies to join me in identifying ways 
to leverage resources in order to more effectively connect SNAP 
participants with employment opportunities.
    USDA has also engaged actively with Federal partners such as the 
Department of Labor, Department of Education, Department of Housing and 
Urban Development, Department of Commerce, Department of Health and 
Human Services, and others to learn from them and identify 
opportunities to work across programs and agencies towards our mutual 
goal of helping Americans find jobs and increase their earnings. And, 
we have recently elevated our commitment to this important component of 
SNAP by establishing an Office of Employment and Training, building our 
expertise in the area of workforce strategies, and working with 
partners to better integrate and align programs and services provided 
by state and local workforce investment boards.
    Finally, we are clear that in this area, there is no room for 
failure. As we are all aware, able-bodied adults without dependents 
(ABAWDs) are subject to time limits on participation--3 months of 
eligibility for SNAP benefits in a 36 month time period--if they are 
not working or participating in an E&T program at least 20 hours a 
week. These individuals can be a challenging population to serve. 
Providing effective services to this population is most critical.
    I am passionate about the opportunity to improve people's lives by 
connecting SNAP participants with the resources and opportunities they 
need to build better futures for their families.
    I appreciate the opportunity to appear before you today, and I look 
forward to any questions you may have.

    The Chairman. Thank you, Secretary Vilsack. The chair would 
like to remind the Members that they will be recognized for 
questioning in the order of seniority for Members who were 
present at the start of the hearing. After that, the Members 
will be recognized in the order of their arrival, and I, as 
always, appreciate the Members' understanding.
    With that, Mr. Secretary, I would like to start by once 
again noting that I appreciate the efforts of the Department in 
implementing it on your behalf, too. As you mentioned in your 
testimony, these pilots required extensive engagement with 
Federal partners to adequately prepare for the pilots, and I 
would like to focus on the pilot selection process and how you 
intend to fulfill the statutory requirements for providing a 
range of pilot projects.
    The statute says that the pilot projects, when considered 
as a group, test a range of strategies including strategies 
that target individuals with low skills or limited work 
experience; individuals subject to the requirements under 
Section 6(o) [of the Food and Nutrition Act], and individuals 
who are working; are located in a range of geographic areas and 
states including rural and urban areas; emphasize education and 
training; rehabilitative services for individuals with barriers 
to employment; rapid attachment to employment; mixed strategies 
and test programs that assign work recipients to mandatory and 
voluntary participation in employment and training activities.
    Does the scoring methodology you have proposed in your RFA 
support the idea that a true range of projects will be 
approved?
    Secretary Vilsack. Mr. Chairman, absolutely. We are looking 
for a broad range of ways and strategies to address this issue. 
Job search, job search training, workfare, work experience, 
basic skills, vocational education, self-employment training, 
job retention, looking at data collection, evaluation, 
collaboration with partners. We are anxious to use this program 
to indeed identify best practices because there are just a 
handful of states that are doing this well today. We need all 
50 states to do it well, and we need to recognize that there 
are different challenges for different groups of people.
    So clearly, the scoring system, the evaluation, will be 
designed to provide as much diversity as we possibly can 
because we need as many good ideas as we can get.
    The Chairman. I always loathe to ask what-if questions, 
Secretary, but what if the applications are concentrated among 
a certain type or particular type? Will there be the capacity 
to go back and reflect on that?
    Secretary Vilsack. I think that is why we have the pre-
application process to sort of make sure that folks are taking 
this seriously. It is also why we have a strong evaluation 
component to this, Mr. Chairman. We are going to be looking at 
this periodically throughout the course of the 2 to 3 year 
period that these test pilots will be working to make sure that 
people are doing what they said they were going to do and 
making sure that they are actually fulfilling the plan that 
they outlined.
    So the expectation is there is going to be great interest 
in this from the discussions I have had with governors. The 
expectation is that folks will create a wide, diverse set of 
practices and programs, and then there will be a strong 
evaluation and oversight effort, and if you are not doing what 
you need to do, we will pull the plug on the pilot or we will 
encourage folks to step up their game.
    The reality is that today we simply aren't doing the job we 
need to do, and states are few--a handful of states are doing 
this very well, as I said earlier, but there needs to be an 
aggressive effort in all 50 states. And if there is, you will 
see numbers come down in SNAP.
    The Chairman. I thank the Secretary. You have just answered 
my final question. What will we do if there is not a proper 
mix, and you have indicated very clearly that is the case. I 
have great faith in the amazing laboratories that are the 
States of this Union, and of the ten that will be ultimately 
selected, I just have great expectations for what they will 
accomplish. But that was the spirit, to think outside the box, 
to help people and help them for real.
    With that, I yield back the balance of my time and turn to 
the gentleman from Minnesota for 5 minutes for his questions.
    Mr. Peterson. Thank you, Mr. Chairman. In your written 
testimony you refer to rehabilitative services and rapid 
attachment to work. Could you explain what they mean?
    Secretary Vilsack. Well, there are a number of different 
strategies because there is not a single classification or way 
that you can describe a SNAP recipient. There are so many 
different segments of SNAP. There are people who have not had a 
job for an extended period of time, and so it may be necessary 
for us to work with them to provide the basic skills that will 
allow them to be successful from day one.
    There may be people who have been recently unemployed, but 
because of where they are or the circumstances in their life, 
it has been difficult for them to find work. But they are work-
ready. We are in a position to work with them to maybe improve 
their job search skills, to be able to hone down to find where 
the best mix might be and the best fit might be. That is a 
process that we hope to be able to encourage through these 
pilots.
    So it really is on an individual-by-individual basis, which 
is why it is important for this program to be as diverse and as 
creative as possible. There are folks with some disabilities 
that are still--have great potential. We want to help those 
folks as well. Whoever is in a position to work, we want to be 
able to try to link them up with the work that is out there, 
and we want them to be successful, Congressman. It doesn't do 
much good if we get somebody a job and 2 weeks into the job it 
just doesn't work for them or they are just not ready for it, 
they don't have the skills. We want to make sure this is a 
success for the individual and for the program.
    So we are going to try to cast the net pretty wide here and 
really encourage folks to be creative. I have three governor 
calls today in three states that we think ought to be engaged 
in this, and we will be making governor calls throughout the 
next couple of weeks because I want governors to understand, 
this is a real opportunity.
    Mr. Peterson. Why do some states offer voluntary E&T and 
others mandatory?
    Secretary Vilsack. Well, the sad reality here is until 
Congress put the spotlight on this effort, states really have 
not done, except for a handful of states, have not done as good 
a job as they need to do. In fact, we have, as you know, 100 
percent federally funded programs. But $17 million of that 
Federal resource is not being spent. We need to put more focus 
on states that are getting the 100 percent grant to actually 
use it.
    Of the states that--and every state understands I think 
that there is a 50 percent match, but only a handful of states 
even use that program. But yet, we have spent several hundred 
million dollars a year on this program. We are just not getting 
as much as we should for the money that we are spending.
    So it may depend on making sure the governors are fully 
aware of the existence of these programs. It may be that we do 
a better job of aggressively promoting this program and 
requiring states to step up. Frankly, we haven't done as good a 
job on that as we should, but this effort allows me now to 
really put a focus on this, and I can tell you that our team 
understands and appreciates this is a personal focus of mine. 
This is why I am here today to testify and to reinforce the 
fact that this is at the Secretary level. This is something 
that I am very, very interested in. I have actually looked at 
the application, the pre-application process. I have been 
working with staff in making sure that we cast a wide net on 
this.
    Mr. Peterson. So, the 100 percent funding, that comes with 
a certain set of rules and so forth and you have to follow 
that----
    Secretary Vilsack. Right.
    Mr. Peterson.--and if you go to 50/50, then you would have 
more flexibility?
    Secretary Vilsack. A little bit more flexibility, part of 
what we are going to do with these pilots, obviously, is 
whatever the rules are, they have to be followed. But there is 
a bit more flexibility with this pilot than there is with the 
normal program which is what we will try to sell or market to 
our friends in state government.
    Mr. Peterson. And there is a handful of states that use the 
50/50 significantly but a lot of states don't use it at all.
    Secretary Vilsack. The largest users are New York, 
California, New Jersey, Illinois, and Washington. And Kevin 
Concannon, the Under Secretary, has actually traveled around 
the country to various facilities. I have been to facilities as 
well to see the kind of work that they are doing. Now, some 
facilities do a great job, and others just frankly don't. I 
think that is the great thing about this pilot. It really gives 
us an opportunity to sort of redesign this program so it is 
more effective than it has been.
    Mr. Peterson. All right. Thank you, Mr. Secretary, and I 
yield back.
    The Chairman. The gentleman yields back. The chair now 
recognizes the gentleman from Virginia, Mr. Goodlatte, for 5 
minutes.
    Mr. Goodlatte. Well, thank you, Mr. Chairman. Mr. 
Secretary, welcome, and I will second or third the remarks of 
the Ranking Member and the Secretary regarding your leadership, 
Mr. Chairman. I had the honor being the Ranking Member with Mr. 
Peterson as Chairman during the last farm bill, and I know how 
contentious these are. But in the end, we reached agreement and 
not only passed the farm bill but passed a farm bill that 
withstood a Presidential veto. And so this one was also 
contentious and took a long time to come together. But I do 
think it moved in the right direction toward more free markets, 
and I was pleased to vote for it. Mr. Secretary, I appreciate 
your work in that regard as well.
    With regard to these pilot programs, this is an issue that 
this Committee has been dealing with for a couple of decades at 
least. In addition to block-granting the TANF Program, 
Temporary Assistance for Needy Families, to the states, the 
Personal Responsibility and Work Opportunity Act of 1996 added 
work requirements for adults without dependents. States may 
apply to the Department to waive this requirement. I believe 
you stated in your testimony that there are now more than five 
million people who are able-bodied adults without dependents 
who are receiving food stamps. You also stated that about 31 
percent of the people on food stamps have some form of 
employment. Can you bring those two together? Do you know how 
many of the five million able-bodied have some work as opposed 
to are not working?
    Secretary Vilsack. Well, Congressman, the requirements are 
that if you are able-bodied without dependents, then you are 
required to commit yourself to either working or receiving some 
sort of formal education or training to get work. And if you do 
not, then your benefits are limited to 3 months of benefits 
every 36 months.
    Now, states have some flexibility with reference to that.
    Mr. Goodlatte. I have several questions.
    Secretary Vilsack. Okay.
    Mr. Goodlatte. Do you know how many of the five million 
are----
    Secretary Vilsack. Well, 31 percent of all households have 
earnings. And so----
    Mr. Goodlatte. Let me just move on to my point here. Has it 
been the practice of the U.S. Department of Agriculture to 
encourage states to apply for a waiver of the work requirement 
and if so, why?
    Secretary Vilsack. Well, I don't think it has been the 
practice of us to encourage states. I think we basically make 
sure they are aware of that situation, and depending upon the 
economic circumstances in their state, they may decide to 
utilize the waiver because unemployment is high in the state or 
unemployment is high in a particular area of the state.
    Mr. Goodlatte. Okay, the language that was accepted in the 
farm bill, and I am paraphrasing, stated that one of the 
strategies of pilot programs is to emphasize education and 
training and rehabilitative services for individuals with 
barriers to employment for ``rapid attachment to employment.'' 
The goal of this Congress was to increase actual employment. 
Can you assure us that the USDA will pick projects with that 
goal intended to increase actual employment?
    Secretary Vilsack. Yes.
    Mr. Goodlatte. And will workfare requirements which you 
mentioned again in your remarks as one of the options be 
treated with favor by the Department?
    Secretary Vilsack. That is the reason why we put it in the 
application. We are encouraging applications to promote that. 
Obviously, it depends on what the states submit, Congressman. 
But there are no preconceived notions about what is in or out. 
We want to make sure we get the best possible ideas and the 
best practices can be identified.
    Mr. Goodlatte. If states wish to collaborate with one 
another and propose one single application containing multiple 
sites and interventions across certain states and sub-state 
areas, would the USDA consider multi-state applications?
    Secretary Vilsack. I don't know of a reason why we 
wouldn't. We are always looking for creative and new ways to do 
things, and we have encouraged that kind of original approach 
in a lot of other farm bill programs, including our 
conservation programs.
    Mr. Goodlatte. And recently this Committee heard testimony 
from Ms. Squier who is the New Mexico Secretary of Human 
Services. She testified that the amount of Federal income taxes 
needed to pay food stamps for 1 year is $1,300 on average per 
income-paying household with each taxpaying household buying 
almost 5 months of groceries for their families. This is 
unsustainable.
    In addition to these pilot projects, are there other 
initiatives that the USDA is taking or encouraging the states 
to take that move exempt, able-bodied individuals to work?
    Secretary Vilsack. Well, we actually are taking a look at 
the regular program that has not been utilized as effectively 
and are doing a better job of encouraging and stressing the 
need for states to be more engaged in the regular program. The 
fact that there are so few states that take advantage of this 
is a problem, and this pilot and this effort has allowed us to 
highlight that.
    Mr. Goodlatte. Thank you very much. Thank you, Mr. 
Chairman.
    The Chairman. The gentleman yields back. The chair 
recognizes the gentleman from Georgia, Mr. David Scott, for 5 
minutes.
    Mr. David Scott of Georgia. Thank you very much, Mr. 
Chairman, and welcome, Mr. Secretary. I must admit I am a 
little concerned as to the timing and why we are having this 
hearing at this time on this very important subject. Today is 
Wednesday, September 17. The applications for the pilot program 
were just released August 25, 3 weeks ago. The question period 
regarding applications doesn't open until Friday. So you can 
understand that I think there is a question here as to why and 
what the purpose of this hearing is and the timing of it. So I 
just wanted to clear the air on that.
    So in your opinion, Mr. Secretary, what if any information 
can you provide regarding the applications that have already 
been submitted by the states for the pilot program?
    Secretary Vilsack. Well, Congressman, I am not sure that we 
have actually received applications. I can tell you that there 
is interest in this program because I have spoken personally to 
governors, and we are going to be conducting a webinar for 
those who have questions about precisely how to go about 
applying.
    As I indicated in my opening remarks, we have the pre-
application efforts coming up next week and then the full 
applications are due in November. And then we will take a 
couple of months to really review them and evaluate them and 
make awards in February.
    Mr. David Scott of Georgia. So at this point, no state has 
submitted application?
    Secretary Vilsack. I may be wrong about that, but I am not 
aware of any.
    Mr. David Scott of Georgia. Okay. Just for the record, 
could you qualify or define exactly what--because the apex of 
this whole pilot program is what is referred to as able-bodied 
adult without dependents, how do you define that?
    Secretary Vilsack. Well, this is an individual who is 
capable of working and has no significant barrier as a result 
of age or physical condition that would make it impossible or 
difficult for them to work, that obviously doesn't have 
dependents. The reality is that there are people who have been 
unemployed for an extended period of time. There are people who 
have been recently unemployed, and both of those fall into that 
category. And there are folks who have been dealing with a 
variety of issues that can be overcome, and they can become 
employable. So we want to work with everyone.
    I think the bottom line is the vast majority of people 
would prefer to have a job and prefer to be on their own than 
necessarily taking assistance from the government, but it is a 
good thing we have it for folks who do need it.
    Mr. David Scott of Georgia. Absolutely, and I certainly 
agree with you. Most recipients certainly want to have a job.
    And the other reason I ask that is because the fastest-
growing group of those who are going on food stamps are our 
veterans, and there are a large number of reasons for that, 
considerations of PTSD. One may look and act normal, but they 
are enduring certain injuries. So I am very concerned about 
making sure we have precision when it comes to the definition 
of what is an able-bodied adult without dependents.
    Now, let me ask you, Mr. Secretary, are there rules for 
work registration in here? Who must register for work?
    Secretary Vilsack. They are required to make themselves 
available unless there is a waiver in place or unless they are 
in an area that has been designated by the state as not being 
subject to these requirements.
    Mr. David Scott of Georgia. Okay. And where and how do they 
register and how is this information getting out to them?
    Secretary Vilsack. Where they register varies from state to 
state, Congressman. I suspect that some are required to 
register at Human Service offices, and some are required to 
register in Workforce Development offices. But we can provide 
you a list of those and a more specific and definitive answer 
on that for your state or for any state that you are interested 
in.
    Mr. David Scott of Georgia. Right. That would be very 
important. And you are aware that, of course, the key to this 
is the partnership with the states, and a variety of states 
each have different, shall we say, attitudes about the program. 
The United States Department of Agriculture is the oversight 
agency on this. Is this correct?
    Secretary Vilsack. We have the responsibility, yes.
    Mr. David Scott of Georgia. And will there be a standard 
that all of these states must hold? Because some are voluntary, 
some are mandated, and as you know, there are certain states 
who have a more draconian approach to this issue than others. 
What are the safeguards that are in place with the Agriculture 
Department to ensure fairness and to ensure that this program 
is not abused or misused, or used in a way that is unfairly 
negative to persons who unfortunately have to have food stamps?
    The Chairman. The gentleman's time has expired, but the 
Secretary most assuredly can answer the question.
    Secretary Vilsack. Well, I would say in the rules and the 
structure of the applications, Congressman, there are 
additional protections to ensure that these programs are not 
abused and misused. Bottom line, we want to work with states in 
a collaborative effort. We want to work with local governments 
in a collaborative effort. We think there is an opportunity 
here to find best practices and to encourage better practices 
on the part of states.
    You are absolutely correct when you say that there is a 
disparity of how this is viewed from state to state. That is 
obviously a concern, and it is frankly something that we need 
to do a better job of at USDA to ensure that states take this 
program seriously because it reflects on the entire SNAP 
effort, and we want to make sure that whatever reflects on it 
is a more positive reflection.
    Mr. David Scott of Georgia. Thank you, Mr. Secretary.
    The Chairman. And I would take a moment to note to my 
colleague the issue concerning timing. It is my understanding 
that we potentially, when we go home this week, will have most 
likely have 2 weeks of session in November, 2 weeks in 
December, and it was the Chairman's view that considering the 
amount of debate and amendment and discussion in Committee and 
on the Floor, that these were important issues, just as you 
very effectively used your time asking those very relevant 
questions.
    Now the chair recognizes the gentleman from Iowa, Mr. King, 
for 5 minutes.
    Mr. King. Thank you, Mr. Chairman. I would first like to 
welcome my fellow Iowan before the Committee here and thank you 
for your service to our country and the issues that are before 
us, Mr. Secretary.
    I would like to start with kind of a big-picture analysis 
and slice this thing down to roughly start with this 316 
million Americans and slice it down to the five million that 
are the subject before us here, and I would start with this. 
The number that I happen to have in my head that probably needs 
to be adjusted from 4 or 5 months ago that out of 316 million 
Americans according to the Bureau of Labor Statistics, there 
are about 104.1 million who are of working age that are simply 
not in the workforce. We have unemployed numbers roughly in the 
12 million area that is included within that. The balance of 
that is 92 million that are categorized as not working, perhaps 
given up. Also some are retired, some are homemakers, some are 
in school, but that would be those 16 million and up.
    We have a huge workforce out there that we are not tapping, 
and somewhere around 142 million is the score of the number of 
our workforce that we have.
    I didn't hear in your testimony the number of those who are 
currently receiving SNAP benefits.
    Secretary Vilsack. It is 46.2 million I believe.
    Mr. King. Okay, and it has gone down then a little over--
not quite a million in the last year, year and a half, 
something like that?
    Secretary Vilsack. Over the last 15 months it is a little 
bit more than a million less than it was 15 months ago.
    Mr. King. So I am encouraged by that trend. It has gone 
dramatically the other way in the previous several years. So I 
am encouraged by that. And in looking at the pilot programs 
that are there, first, I draw a blank. What is our 
unemployment--excuse me. What is the minimum wage in the United 
States today?
    Secretary Vilsack. Well, I know what it should be, 
Congressman.
    Mr. King. I thought you might offer that. But I am curious 
about what it is.
    Secretary Vilsack. Is it $7.25.
    Mr. King. I will settle on that. I wasn't sure. We think 
that is right, but nobody is working for that that we know of, 
$7.25 in that area. Is that a factor in these pilot programs if 
there are jobs that are offered at minimum wage? Is that a 
factor or is your Administration going to look at what you 
think the minimum wage should be rather than what the minimum 
wage is?
    Secretary Vilsack. Well, it is clear, Congressman, that if 
we raise the minimum wage to $10.10, we would have 3.6 million 
fewer people receiving SNAP. Now that is clear. But the purpose 
of this pilot is to advance the opportunities and to figure out 
precisely what the barriers are, what skill sets are required, 
what the job training efforts must be.
    Mr. King. But my question really is focused on is work at 
minimum wage or above, is that a goal or is the proposed 
minimum wage by the Administration going to be a benchmark that 
might restrain some further employment that you recruited by 
the pilot program?
    Secretary Vilsack. It is a goal only in the sense that if 
there are people who have work, they could get better work and 
higher wages and therefore not need the program, we obviously 
want to encourage that as well.
    Mr. King. And so if a state has a pilot program that 
increases and brings people to work at minimum wage or 
someplace under the $10.10 an hour, that wouldn't be--your 
policies would not be prejudiced against those jobs----
    Secretary Vilsack. No, because what----
    Mr. King.--are preferable regardless if they are minimum 
wage or above.
    Secretary Vilsack. What we are trying to do is to put folks 
to work, and we are trying to match it with the demand that 
exists for workers. So it is not a situation where we want to 
train somebody for a job that doesn't exist or that isn't 
available. We want to make sure that folks are prepared for the 
jobs that are in the economy and are available.
    Mr. King. I like that, and it brings me to another 
curiosity that I have is that we are focusing these pilot 
programs within the states to be run by the states, and we are 
aware that there are states like North Dakota that are begging 
for employees to come up into that country and work in the oil 
fields and in all the businesses that have been spun off of the 
oil fields. Their unemployment rates are terrifically low. 
Iowa's have come up to where they are a little better than--
well, significantly better than the rest of the nation.
    What we have seen historically or when the Okies went to 
California, I might add, they went to the jobs. Is there 
anything in these pilot programs that would allow for a 
transition from state to state and encourage the relocation of 
employees? Because that seems to be a consistent barrier of 
people whose roots are down, and we seem to try to want to 
bring jobs to where people live rather than people to where the 
jobs are.
    Secretary Vilsack. Well, I would say that a state or states 
could put together a proposal similar to that that would be 
considered. There is nothing prohibiting that or preventing 
that.
    The bottom line here, Congressman, is we want folks to be 
as creative and innovative as possible because at the end of 
the day, we need to do a better job of this than we have been 
doing, and we need to identify programs and practices that 
work.
    Mr. King. And I would encourage you to encourage that. I 
think that is one of the barriers we have to employment in this 
country is a resistance to relocation. If that could be part of 
this, that would cause me to have an even more optimistic view 
about these pilot projects. I thank you for your testimony, Mr. 
Secretary, and I yield, Mr. Chairman, Okie, the balance of my 
time.
    The Chairman. And I thank the gentleman from Iowa, and yes, 
yielding me those 9 seconds back, the way my Okie ancestors 
probably felt sometimes.
    That said, we now turn to a gentleman who understands this 
very well, the gentleman from California, Mr. Costa, for 5 
minutes.
    Mr. Costa. Thank you very much, Mr. Chairman. I, too, want 
to add my congratulations and thanks for your hard work on the 
farm bill and many other efforts that all of us on the 
Agriculture Committee have engaged in with you in making some 
successes happen for agriculture across America. Mr. Secretary, 
I want to commend you as well for your good efforts.
    Quick question and then I want to talk about the focus of 
the food stamp programs. Mr. Secretary, a number of my 
constituents are concerned about the review process and the 
awards grants provided through the Specialty Crop Research 
Initiative which is the panoply of many diverse crops we grow 
in California and around the country. Would you and your staff 
follow up with mine to discuss the review process for awards, 
specifically on the vineyard management proposals?
    Secretary Vilsack. Sure.
    Mr. Costa. Thank you very much. Mr. Chairman and Members, 
it has been mentioned by the Secretary in his testimony, the 
major goal of the Supplemental Nutrition Assistance Program, 
which we refer to as SNAP, is to help people move forward and 
to become self-sufficient by helping them secure and maintain 
jobs. Obviously, that is the goal we all embrace. And I want to 
specifically note a program in my district which I have 
previously briefed the Food and Nutrition Services' Under 
Secretary Concannon who is doing a good job, called the Fresno 
Bridge Academy. My friend, Pete Weber, and his partners have 
used imagination and creativity to really think out of the box, 
and that is where these pilot programs come into play. It is a 
unique program that is producing excellent results. Let me give 
you an example.
    In the most recent graduating class, 77 percent of the 
participating SNAP clients came in unemployed. The remaining 
were underemployed. Eighteen months later, 83 percent of the 
clients had obtained employment or job advancement, and 32 
percent had achieved complete self-sufficiency and reliance. 
Those are good numbers in the right direction, I believe.
    These pilot programs launched by the USDA will help 
tremendously the percentage of people enrolled in programs 
throughout the country like this Bridge Academy in Fresno. But 
I am sure that many of my colleagues are wondering, well, what 
is the cost in achieving these results? The Bridge Academy, as 
an example, developed along with Fresno County Department of 
Social Services, has a cost-benefit model that helps monetize 
and evaluate the results of this program. They found that for 
every Federal tax dollar used, there was a $5.50 return to the 
taxpayer in the form of reduced outlays for food stamps, plus 
income taxes paid by people who were tax users rather than 
taxpayers.
    So my question, Mr. Secretary, is has the Food and 
Nutrition Services developed a cost-benefit minded application 
model across the country for these pilot projects?
    Secretary Vilsack. I don't know that we have specifically 
crafted that type of return on investment, but it certainly 
could be part of the overall evaluation process.
    Mr. Costa. Good. Well, I would be interested in looking to 
see if we could work together in a collaborative fashion to 
maybe use this model as a way to try to do what many of us here 
believe we ought to be doing.
    Secretary Vilsack. I am hopeful in the evaluation process 
that we actually have diversity, a bit of diversity, in the 
evaluators as well so that we have a cross-section of good 
ideas in terms of how best to evaluate these programs.
    Mr. Costa. You are talking about calling the governors. How 
do we get this imagination and creativity that has been 
expressed in my area in Fresno expanded around the country?
    Secretary Vilsack. Well, I think that is what this whole 
point is, this whole effort is about. It is about identifying 
best practices and making sure that governors are personally 
engaged in and aware of this opportunity. That is why I am 
calling my former colleagues to say, ``Hey, this program is out 
there and you ought to be focused on this.''
    Mr. Costa. I want to segue to another question area. As 
part of the 2014 Farm Bill, which you are doing a good job in 
implementing, we have the conservation compliance requirements 
that were transferred from direct payments on any farming 
operation that may be receiving a crop insurance subsidy. As 
you know from your many visits to our great State of California 
and our diverse agriculture that involves a lot of the fruits 
and nuts and wonderful specialty crops--I passed some of them 
out to Members of the Committee a moment ago--that we are 
starting to hear concerns from growers throughout California 
over the new farm bill requirements linking the crop insurance 
participation to conservation requirements.
    Mr. Secretary, how do we work through this in the 
Department to ensure that we figure this out?
    Secretary Vilsack. Well, we first want to make sure that 
every producer knows that they have a responsibility by June of 
2015 to file the AD-1026 Form. Some of the producers that you 
have mentioned may not have been used to filing such a form, 
but they are absolutely required to do so under the farm bill. 
And the reason for it is that we are continuing to expand crop 
insurance availability to specialty crop producers, and if they 
fail to do this by June of 2015, they won't be able to get the 
assistance from the government in terms of the subsidies on the 
premiums, and they won't be able to get the coverage that they 
would like to be able to get.
    So first and foremost, it is about making sure that folks 
comply with that mandatory requirement under the farm bill and 
making sure people are aware of it.
    Mr. Costa. Thank you very much. My time has expired. Thank 
you, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    Secretary Vilsack. Mr. Chairman, can I just mention that 
the only goodies that I received were the Oklahoma peanuts 
which I appreciate. I didn't get any of those specialty crops--
--
    The Chairman. You are a lucky man, Mr. Secretary. You are a 
lucky man.
    I now recognize the gentleman from Texas, Mr. Neugebauer, 
for 5 minutes.
    Mr. Neugebauer. Thank you, Mr. Chairman, and thank you for 
holding this important hearing. And Secretary Vilsack, thank 
you again for coming today.
    You know, in reading through your testimony, you talked 
about that the USDA's request--you mentioned types of proposals 
that you are interested in from states and different types of 
approaches, and one of the things that you mentioned in there 
that has shown promise with other populations. Certainly, we 
need to be searching out for existing models that other states 
may want to implement or try. But one of the things that I 
would hope that you built into the process, and I would be 
interested in hearing your reflection on that and how you might 
implement that, is we also want to make sure that we create an 
opportunity for some new ideas and new innovation of ways to do 
that because obviously, we have a lot of people on food stamps. 
And some of the methods that we have been using to get people 
out of poverty have not been working. I think food stamps are 
just an indication. It is a good indicator for that, and 
unfortunately, it is an indicator that says there is a problem 
out there when we have one in five Americans currently on food 
stamps in this country.
    So in the process, how have you built in to make sure that 
you not only look for things that are working now but encourage 
people to come up with new innovation?
    Secretary Vilsack. Well, I have a couple of things. First 
of all, we are encouraging more collaboration and more 
partnerships. We think that there is a need for more partners 
to be engaged in this who have creative ideas and new ideas. We 
also are indicating a desire to work with different groups of 
individuals. There may be individuals who have barriers. We 
want case management opportunities to be presented for those 
types of individuals. There may be circumstances where we want 
our partners to identify jobs that are in demand and how we get 
the people that are on SNAP into those jobs that are in demand, 
what skills are required, what education is required, what 
training is required.
    I think we have set this up with enough flexibility and 
encouragement for people to be creative, and also as I talk to 
governors explaining to them that what we have been doing is 
not working as effectively as it should. In some cases it is 
because people aren't taking advantage of the programs. In some 
cases, people aren't paying attention to the programs.
    I think the combination of outreach, the webinars, and the 
way in which we have structured this pilot we hope and believe 
will result in a diversity of ideas, new ideas, creative ideas, 
and innovative ideas. That is the goal.
    Mr. Neugebauer. Well, I appreciate that, and not only you 
have ten slots there, and I would hope that you reserve a slot 
or two for some really out-of-the-box kind of thinking so that 
we make sure.
    I guess one of the other questions is that you have 
mentioned--and I appreciate this--that you are taking this at 
the Secretary level and you have been reaching out personally 
to some of the governors. What is your initial response? Is 
there interest in this from the governors that you have spoken 
to?
    Secretary Vilsack. There is, but the initial response 
candidly is, ``Well, I didn't know there was such a program. I 
need to check.'' Or we will say, ``Did you know that you 
haven't spent all the resource that you have available?'' That 
always gets a governor's attention from prior experience.
    I think that these calls are effective, and it certainly 
underscores their need to be involved. At the end of the day, 
this will not work unless it is perceived in the states that 
this is a priority at the highest level. This can't just be the 
Director of Human Services' concern or the Director of 
Workforce Development. They really have to hear from the 
governor that, ``You know what, we need to do a better job of 
this.'' And if they do, then I am very, very confident we are 
going to do a better job.
    Mr. Neugebauer. Thank you. Mr. Secretary, one last thing. I 
wouldn't be doing my job if I didn't mention to you how 
important that those APH adjustments are to people in my part 
of the world. It has been several years of drought here, and 
that was called for in the farm bill to be implemented by the 
spring of 2015, and that is an indication that you are not 
going to be able to meet that. I think several of us have 
reached out to you and seeing if there are ways to implement 
portions of that in those areas that have had problems in the 
past that--but anyway, I certainly would encourage you to 
continue to work in that direction.
    Secretary Vilsack. Congressman, we obviously have received 
not only your directive but also the Chairman's directive and 
others, and we recognize this. This is a challenge for us, as 
you know. We have looked at the idea of trying to parcel out 
certain sections of the country. The problem in addition to the 
staffing issues that we have addressed is that it could 
potentially create a significant problem in terms of 
inequality, inequity, and premium increases that are not 
necessarily warranted. So it is a complicated issue. We will do 
our best.
    The Chairman. The gentleman yields back. Thank you for 
noting my interest, too, Mr. Secretary.
    The chair now turns to the gentlelady from Ohio for 5 
minutes.
    Ms. Fudge. Thank you very much, Mr. Chairman, and Mr. 
Chairman, I too would like to say that certainly I appreciate 
your leadership but more importantly your friendship. It has 
been a privilege and a pleasure to serve with you, especially 
during the time of the farm bill, so I thank you. And we will 
miss your leadership.
    Mr. Secretary, thank you so much for being here. We all 
know that the SNAP program works. We know that fraud, which is 
certainly a concern of my colleagues in particular is at its 
lowest in the history of this country. We know that the numbers 
of people on SNAP are going down as we expected they would. So 
I am only going to ask you two questions, and I am going to 
give you the rest of the time to address anything you still 
need to address.
    The first one is that as I look at my own district, there 
are over 33,000 families that receive SNAP, but over 67 percent 
of them over the last 12 months have had one or more workers in 
their household. So it is not that they don't work. But the 
question is what impact do you believe the emphasis on work-
based learning opportunities outlined in the August 25 Request 
for Applications will have on the success of the pilots that we 
have been discussing today? And second, in what ways can work 
pilots supplement the economic stimulus that SNAP already 
provides to this nation?
    Secretary Vilsack. Well, Congresswoman, what we hope is to 
be able to identify strategies to get folks who are currently 
employed better working opportunities by looking at that 
demand-driven approach. What are the demands for jobs out there 
and how can we link people up and make sure they have the 
skills to be successful?
    It is not surprising that the percentages you have outlined 
are what they are in your district. The reality is that of 
those who are capable of working, 80 percent of SNAP 
beneficiaries have either worked just prior to needing SNAP or 
after they leave SNAP are employed. So I mean, people do want 
to work, and so the question is why aren't they working? And in 
some cases it may be they are not aware of how to go about 
looking for those jobs. In some cases it may be that there is a 
transportation barrier, there is some other barrier, a basic 
skills barrier. Let us figure that out.
    In some cases, it may be that this person has a skill, and 
if we added just a bit more to that skill with an 
apprenticeship or pre-apprenticeship program, they would be 
able to do a job that is a significantly higher paying job than 
the job that they have.
    So the bottom line to all this is getting more people to 
work who want to work and getting people better-paying jobs who 
already have jobs. And if you do that, you are going to see a 
decline in the need for SNAP. And that is, in our view, the 
right way to go about doing it.
    Ms. Fudge. Thank you. I have no more questions for you. If 
there is a question that was asked that you need to respond to 
or something else you would like to say to the Committee, 
please feel free.
    Secretary Vilsack. I feel compelled to note for the record 
that Mr. Costa did provide walnuts and pistachios to go.
    The Chairman. Californians are always trying to catch up.
    Ms. Fudge. Mr. Chairman, I yield back the balance of my 
time.
    The Chairman. The gentlelady yields back. I now turn to the 
gentleman from the State of Texas, Mr. Conaway, for 5 minutes.
    Mr. Conaway. Thank you, Mr. Chairman. I appreciate that, 
resemblance of those remarks. I, too, want to brag on you for 
the great work you have done. I would use that tired phrase, 
you must have big shoes to be filled, but that would apply in 
any case, whether you have done a good job or not. But you have 
done a great job and----
    The Chairman. And hopefully I won't leave anybody a case of 
political athlete's foot, I promise.
    Mr. Conaway. Mr. Secretary, I thank you for being here. The 
laws require that you have this process started within 180 days 
that I would neglect if I didn't mention that a bit late on 
that, getting that some 200 days from when this process 
started.
    Do you anticipate any other delays in the timelines that 
you have laid out at this point?
    Secretary Vilsack. I don't, Representative. I would say 
that our team, if you take a look at the totality of the work 
that we have been doing on the farm bill, has done a good job 
of implementation. There may be a little slippage here or 
there, but we have done a lot of work in a short period of 
time. And what folks don't realize is a lot of this work 
funnels into the General Counsel's office and the Office of 
Budget and Program Analysis, and the same people are having to 
do the conservation stuff, the foundation stuff, the ARC-PLC 
stuff, et cetera. But we have a timeline, and we are going to--
I guarantee you the awards are going to be made in February.
    Mr. Conaway. All right. Well, I was going to brag on you 
about the cost-benefit analysis sections of the proposals, but 
you weren't real clear that those were in there. But they are 
in there, and I appreciate those being a part of the process of 
evaluating these proposals.
    Looking at the existing programs, you say we have $83 
million we spend each year. That means there is $17 million of 
it that is unspent. Have you surveyed the states that don't 
apply to find out why they are not applying for the money? Is 
it if you look at this Request for Applications, those 30+ odd 
pages, is it just too hard to get into the program for a lot of 
states? Is that what----
    Secretary Vilsack. I don't think that is what it is, 
Congressman. I think it is a lack of understanding and a lack 
of prioritization.
    Mr. Conaway. Okay.
    Secretary Vilsack. It is not a criticism. There is a lot 
going on in a state and a lot going on in an economy. This may 
not rise to the level of priority, but with this pilot, what 
you have done is you have created a spotlight that I think will 
enhance and encourage more folks----
    Mr. Conaway. All right. So this would be on top of that 
existing 100. We didn't supplant that. The 100 percent match 
money is still there as well as this new money.
    Secretary Vilsack. We need to do a better job on both the 
100 percent and the 50 percent match, no question about that.
    Mr. Conaway. Yes. On the 100 percent, is there a matrix-
created success? In other words, how many people find jobs? How 
many people come off of SNAP as directly related to the 
programs that are there?
    Secretary Vilsack. Well, that is certainly the goal, and we 
will be happy to give you the----
    Mr. Conaway. On the----
    Secretary Vilsack.--details of that.
    Mr. Conaway. Yes. On the five million that you mentioned, I 
assume you don't have it off the top of your tongue. I don't 
expect that. But do you have that categorized by state?
    Secretary Vilsack. I think it probably is.
    Mr. Conaway. Then we would be able to tell which of those 
states have exercised the waiver on the work requirement for 
able-bodied adults under----
    Secretary Vilsack. Well, 43 states have exercised that 
waiver. So it is probably----
    Mr. Conaway. I know, but I would be interested if you could 
to give us the data that shows is there a disproportionate 
number of that five million in states that have exercised the 
waiver versus the seven states that haven't? That would be 
helpful if we could look at that.
    How do I answer this question: Again, all politics is 
local, and I am blessed to represent a district where two major 
cities have an unemployment rate of three percent. There are 
``now hiring'' signs everywhere. I also grew up in a family 
where my dad thought it was a lot more important that he had a 
job than where we lived. So if the rigs were running in Morgan, 
Texas, we lived in Morgan, Texas. And if the rigs were running 
in Odessa, Texas, we lived there. And so getting to Mr. King's 
comments, going to where there is a job seems to have a great 
deal of benefit. So how do I answer this question: I had a lady 
employer come to me, and she said she had additional hours in 
overtime for her team to work. She offered it to her team. They 
said yes, and then within a day or so they came back to her and 
said we can't work those extra hours because it would have a 
negative effect on our benefits. How do I answer that employer 
as to why she can't--why those folks would not be willing to 
work the extra hours because it caused them to cross some 
artificial threshold?
    Secretary Vilsack. Well, Congressman, I would be a little 
bit concerned about answering that question because I don't 
really know the personal circumstances of those workers. I 
don't know in terms of benefits of what they are specifically 
talking about. I don't know what their family situation is. I 
don't know what their childcare cost----
    Mr. Conaway. That is fair. That is fair, but if we put in 
these pilot programs, how are you going to address that issue 
that you get them off the benefits but they go into a job that 
makes $12 an hour?
    Secretary Vilsack. Well, I think there are a significant 
number of folks who are looking for work and we can do a better 
job of finding them that opportunity, and I am very confident 
that they will take that opportunity.
    Mr. Conaway. My time is almost expired. I am pleased that 
this is a state best effort because it is not quite frankly the 
Federal Government's responsibility to prosper for Midland, 
Texas. It is the folks in Midland, Texas' responsibility to 
prosper and create the kind of environment that has those jobs 
where people can go to work. So I appreciate that this state-
based effort hopefully will show some promise because I am not 
real keen on the Federal successes, and maybe we will have a 
different approach.
    So I yield back. Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired. The chair 
recognizes the gentlelady from Washington State, for 5 minutes.
    Ms. DelBene. Thank you, Mr. Chairman, and thank you as well 
for your leadership of this Committee. We really appreciate it. 
And thank you, Secretary Vilsack, for being with us today, and 
thank you and your team for all the work that you have done so 
far on implementing this program.
    Before I get started, I have to say that I think it is a 
little odd that we are having this hearing right now before we 
have a lot of information just a few weeks after the request 
for applications went out. When we have more information, then 
you have information on the types of applications you have 
received, et cetera. I think it will be an important 
conversation, so I hope we will have a chance to have that 
conversation as well.
    That said, these pilots are extremely important. Back in 
May of last year I introduced the Enhancing Employment and 
Training Through Education Act, a 3 year, $30 million 
competitive grant fund to encourage states to provide targeted 
employment and training programs. It was based on Washington 
State's Basic Food, Education, and Training Program, what we 
call BFET, which has been a highly successful program in our 
state, and that bill was included in the farm bill from the 
start. And we fought very hard to increase funding for these 
pilots, and at the end of the conference committee, we have an 
expanded program, $200 million, and up to ten pilot programs. 
So I am very excited about this.
    Washington's BFET Program has proven to be very successful 
at helping low-income individuals get jobs. We have 11,000 
people who have gotten jobs to date. During the height of the 
recession, 60 percent of Washington's BFET participants found 
jobs, and a recent analysis of our program found that fewer 
than \1/2\ of those enrolled remained on government assistance 
2 years after starting the program. So that is the kind of 
success I think that we are hoping will stem from these pilots 
and greater learning on what can be shared amongst all of us 
across the country to have successful programs.
    Unlike most Federal job training programs that exist today, 
these pilots will provide targeted employment and training 
resources tailored to help low-income adults currently 
receiving SNAP benefits. Historically programs that serve SNAP 
participants have provided limited job search assistance and 
expansion of a Washington State style program will encourage 
states to administer programs with meaningful education and 
training opportunities, enable participants to obtain industry-
recognized degrees and credentials that are definitely highly 
valued and help really determine long-term success. This is a 
smart way for us to invest now in education and training and 
career opportunities and save money as these workers transition 
off of SNAP.
    So thank you very much for your work on this. Can states 
submit more than one application for the potential pilots?
    Secretary Vilsack. I don't think there is any restriction 
on the number of applications that a state can submit. They 
might want to think about the strategy behind that in terms of 
being able to distinguish the characteristics of each 
application. But I don't think there is a restriction, again, 
the more applications, the better. The more creative the ideas, 
the better.
    Ms. DelBene. Okay. Thank you. And to what degree do you 
think current state E&T programs will intermingle with these 
pilots or do you have any expectation around how that might 
work?
    Secretary Vilsack. Well, I know that Kevin Concannon 
traveled out to Washington because of the success of your 
program, and he traveled to a number of other states. So I am 
very certain that characteristics of successful programs have 
been identified in the application process as criteria that 
folks should consider. So it did give us an opportunity to 
begin the process of educating people about what works. Now we 
obviously have to do a much better job of that.
    You mentioned another issue which speaks to the notion of 
folks crossing borders and searching work. Oftentimes, states 
don't necessarily recognize the credentials from one state to 
another which may be an impediment and it may be something that 
this process might allow us to address a bit.
    Ms. DelBene. That was a great point. Thank you very much 
again for being here, and I yield back the remainder of my 
time, Mr. Chairman.
    The Chairman. The gentlelady yields back. The chair now 
recognizes the gentleman from Georgia, Mr. Scott, for 5 
minutes.
    Mr. Austin Scott of Georgia. Thank you, Mr. Chairman. 
Secretary Vilsack, as you know, with anything that we do, we 
have to balance access with integrity in any of our programs so 
the public will maintain support and not lose faith in them. 
And one of the issues as I am traveling my state that I 
continue to hear is the issue of drugs. And when I talk to 
employers, the number of people they have to let go because of 
failing a drug test, the number of people who come in and apply 
for a job who they cannot hire because they fail a drug test, 
is one of the primary concerns. And as I continue to talk to 
constituents, this is an issue that comes up over and over 
again.
    My question for you is states who, in the application 
process, would prohibit somebody who lost their job because 
they failed a drug test or who did not obtain a job because 
they had failed a drug test. How will your Administration look 
upon that and the potential for drug testing for food stamp 
beneficiaries?
    Secretary Vilsack. Well, we certainly--at this point in 
time, we don't require drug testing relative to the regular 
program. I would say that there is a recognition that there may 
be people who are in that able-bodied category that have 
substance abuse issues, and that may be the barrier that they 
have to being able to obtain or retain work. So the question 
would be whether or not states can come up with creative and 
thoughtful ways to deal with that barrier, to remove that 
barrier, so that person can be productive and no longer need 
food assistance.
    Mr. Austin Scott of Georgia. Let me be a little more clear 
about it. If in a state's application they said that we were 
not going to allow somebody who lost their job because they 
failed a drug test to receive Federal SNAP benefits, would the 
Secretary allow that as part of the application process?
    Secretary Vilsack. You know, I am not sure why a state 
would do that because the purpose of this is to get people to 
work. It isn't necessarily to define how we ought to restrict 
this program for one reason or another. It is really designed 
to do two things: first, to get people jobs; and second, those 
who have jobs, to get them better-paying jobs. That would be a 
bit inconsistent with the purpose of the pilots to do that. And 
that may be a conversation that you and your colleagues have to 
have about the overall SNAP program. It is not something we 
would probably be supportive of, but I don't think it fits into 
the reason why we have these pilots. The pilots are really 
designed to find people work and find people better-paying 
jobs.
    Mr. Austin Scott of Georgia. Well, the problem that comes 
then is for the man and the woman that is getting up there 
every day and going to work and maybe working at those starting 
wages, working on the assembly line. It is pretty frustrating 
for them to see somebody who maybe loses their job or doesn't 
go to work because they fail a drug test, to see them getting 
benefits.
    Secretary Vilsack. Well, Congressman, I guess we all have 
personal experiences that sort of shape how we think about 
these things. I think back to my mother's challenges with 
alcoholism and the pride that she took in ultimately overcoming 
her addiction and having employment. It would be a sad day if 
our country wasn't willing to give her a second chance.
    Mr. Austin Scott of Georgia. Mr. Secretary, with due 
respect, we are not talking about second chance here. We are 
talking about people who are making a choice in many cases to 
buy drugs instead of food. And it is one of the reasons that 
many American citizens have lost faith in this system. And so 
again, I mean, I am talking about protecting the integrity of 
the system, and quite honestly, I don't think that working 
people's tax dollars and their wages should be going to pay for 
SNAP benefits for people who are failing drug tests. I just 
hope that if a state says that somebody who loses their job 
because they failed a drug test should not be eligible for food 
stamps, that the agency would respect that decision by the 
leadership of the states.
    With that said, Mr. Chairman, I will yield the remainder of 
my time.
    The Chairman. The gentleman yields back the balance of his 
time. The chair now recognizes the gentlelady from California, 
and would note in spite of my earlier comments, few states have 
the relationship that Oklahoma and California have had over the 
last 85, 90 years. The gentlelady is recognized for 5 minutes.
    Mrs. Negrete McLeod. Thank you, Mr. Chairman, and thank you 
for your leadership. Thank you, Mr. Secretary, for coming. I am 
not going to talk about a pilot program, but I am going to ask 
about the California Success Program, which partners with 
community colleges to execute training programs. It encountered 
some problems when USDA deemed that the program was supplanting 
rather than supplementing a program. Can you give California 
some state guidelines on how to modify a program so it does not 
run into statutory problems?
    Secretary Vilsack. We would be happy to work with the state 
to try to find better alignment. You know, this is really about 
encouraging, not discouraging.
    Mrs. Negrete McLeod. Yes, and we have some community 
colleges that had a program set up, and then they were deemed 
not being able to run.
    I also have another question, but I will submit it to your 
staff so that they can answer me on that particular question. 
And again, thank you so much, and Mr. Chairman, I am going to 
cut it real short. I just want to thank you for allowing me to 
sit on this Committee and being a part of it. You know, this 
will be my one and only term here in Congress.
    The Chairman. You will be missed. The gentlelady will be 
missed. Thank you very much. The gentlelady yields back. The 
chair now recognizes the gentleman from California, Mr. 
LaMalfa, for 5 minutes.
    Mr. LaMalfa. Thank you, Mr. Chairman. It has been a real 
pleasure to work with you as Chairman on this Committee here. 
You are a person that seeks and finds solutions and brings 
people together and you are a great example we can all have 
around here. So I appreciate this time.
    It is interesting in the comradery of this Committee here I 
have heard at least three complaints about why we are having a 
hearing today, and I am reminded that it is the job of the 
people's House to have oversight of the Federal agencies and 
departments that we appoint and deploy. And so any time we can 
have a hearing on how a program is being implemented or how it 
has come along to be implemented, it is a good thing to have 
that in front of the American people. And conversely, when you 
hear that maybe bills have moved to the Floor a little quickly 
and we didn't have a hearing about it, I just am kind of 
mystified as to how those two things oppose each other.
    Anyway, so it is good we are doing this today and talking 
with the Secretary. I appreciate him attending here and 
updating us on how things are coming along. The SNAP program 
known as Supplemental Nutrition Assistance Program. I don't 
think it is supposed to be the be-all and end-all for all types 
of assistance for people. That is why the word supplemental is 
in there. But it is proper for us to fine tune and course 
correct on programs the government has started and implemented 
over the years. So in doing so on these pilots coming up, it is 
a very good thing that we have--we are looking at some 
refinements to work requirements.
    If I may just offer them, Mr. Secretary, I would be remiss 
if I didn't at least mention it as a Californian with our 
drought situation here that your folks are working with our 
growers out there as well on implementing relief on that. So if 
I would just ask you to continue to keep an eye on that, things 
seem to be coming along pretty well at this time and also take 
a look over your shoulder at how Forest Service is doing here 
because the fires are just devastating in Northern California 
as well, Siskiyou County. A number of you had visited Trinity 
County next door not too long ago. It is devastating out there, 
and we need a lot of help. Let us get the Forest Service on 
track with managing those lands.
    So that said, back to the topic here. I am curious. You 
know, we have seen in the long history of welfare reform that 
the Work First projects have far exceeded educational projects 
in terms of how promoting work and increasing earnings, both in 
the short and long term, that they work pretty well that way. 
The Department of Labor has even moved away from education and 
training-only models. Can we receive a commitment that you 
would also consider that Work First types of projects have been 
proven to be successful when selecting these applicants?
    Secretary Vilsack. Well, Congressman, the pilots will allow 
work to count as an E&T activity, and that is different than 
the core E&T Program. Obviously we want to make sure there is 
adequate level of protection so that it is not abused or that 
individuals can't be unduly sanctioned for non-compliance, 
unless there is compelling evidence that they refused to 
comply. And in that case, obviously, that is a problem for 
them.
    But yes, this is going to count as an E&T activity in this 
pilot.
    Mr. LaMalfa. Okay. You know, I was kind of alluding to what 
Mr. Scott was saying a while ago. I think the American public 
that pays the bills expects to see that people that are able 
are seeking work and that work-oriented programs are at the 
forefront, just to keep the ball moving on unemployment and 
people understand the value of a job. So that is why I bring 
that up.
    So appreciate it. I yield back, Mr. Chairman.
    The Chairman. The gentleman yields back the balance of his 
time. The chair now recognizes the gentleman from Oregon, Mr. 
Schrader, for 5 minutes.
    Mr. Schrader. Thank you, Mr. Chairman. I appreciate it very 
much. It has been my privilege to serve on the Agriculture 
Committee with you, and one of the few bright lights in my 
Congressional career is working on the farm bill with you and 
the rest of the Members of the Committee. You truly couldn't 
tell a Republican Member from a Democratic Member, and I think 
that is due to your leadership and the Ranking Member. I 
appreciate it.
    I would like to switch gears a little bit here, Mr. 
Secretary, since we are talking in general also about some of 
the other elements of the farm bill that did pass, and one of 
those was to have the Department of Agriculture consult with 
the Department of Labor in their use of what we call hot goods 
in dealing with some of our farmers, in particular, those 
dealing with perishable goods. As you know, hot goods 
legislation grew out of a depression-era program to give the 
Department of Labor the ability to deal with willful violations 
of Wage and Hour Law or Child Labor Law and allowed the 
Department of Labor to confiscate usually textiles or hard 
goods so that individuals, businessmen and women that were not 
following the law would be encouraged to pay the penalties and 
actually re-institute the wages for these people.
    It has been expanded particularly in recent years to 
include perishable products, and as you may know, in Oregon a 
couple years ago, the Department of Labor swooped on to a 
couple of blueberry farms in my district in the State of Oregon 
and threatened and extorted money from blueberry growers saying 
that they were going to quarantine and confiscate this crop of 
perishable product unless they admitted guilt, paid penalties, 
paid fines up front for which they are supposed to have due 
process. As a matter of fact, the conversation that I had with 
the Department of Labor in 2012, they indicated they don't do 
this until they have exhausted all other resources and the 
farmer has had an opportunity to make his or her case.
    That was not done, however, by the regional representatives 
of the Department of Labor in Oregon. And as a result of that, 
we have reached out to you in your office to talk a little bit 
with the Department of Labor as they move forward in their use 
of hot goods. There have been two court cases that have said 
that the Department of Labor willfully violated the rights of 
these farmers. As a matter of fact, while they didn't judge the 
use of hot goods necessarily, the acts were so egregious, the 
two courts have said that the money should be returned to these 
farmers, and the Department of Labor to this day has not been 
able to find all these workers that supposedly were on these 
farms that did not get paid.
    So to that extent, I am very interested in your comments 
about any conversations you have had with Secretary Perez or 
folks in your office about how to work together on the 
implementation so farmers have due process and workers get 
their due rights at the end of the day.
    Secretary Vilsack. Congressman, personally I have not had a 
chance to visit with Secretary Perez specifically about that 
issue. We have actually been working collaboratively on this 
issue that we are here today to talk about which is the SNAP 
E&T Program, getting his thoughts and his team's thoughts about 
how we can structure this in terms of getting people lined up 
with the demand-driven jobs and pre-apprenticeship 
opportunities. But given the fact that you have raised it, I 
will be more than happy to reach out to him. I suspect our 
staffs have probably talked about it. Part of the challenge is 
there are a lot of areas where I have to visit with sister 
agencies of the agricultural economy about what is going on. 
Most recently the child labor issue was an issue that we talked 
a little bit about with the Department of Labor. We are 
conversing with them on this. We are making sure that they 
understand what a perishable commodity is and will continue to 
consult with them. But I will be happy to talk to Secretary 
Perez about your concerns.
    Mr. Schrader. If you could, I would appreciate it. On the 
Horticulture Committee, Chairman Scott and I and the rest of 
the Committee, in a bipartisan fashion, are very concerned 
about misapplication of what was originally intended as a good 
tool in the toolbox and wanted to make sure that is not used in 
a way that denies Americans due process. So if you could get 
back to our Committee, I would certainly appreciate it.
    With that, I yield back, Mr. Chairman.
    The Chairman. The gentleman yields back. The chair now 
recognizes the gentleman from Illinois, Mr. Davis, for 5 
minutes. I assume we are about to start harvesting corn, 
correct, Mr. Davis?
    Mr. Davis. Actually, some fields are already there.
    The Chairman. I think a lot of people feel better already.
    Mr. Davis. Yes, well, thank you, Mr. Chairman, for coming 
to the 13th District last week, and just north of where we 
were, they are already harvesting. How about Iowa, Mr. 
Secretary? They got any out of the field yet?
    Secretary Vilsack. Well, honestly I am hoping they wait 
until we have enough rail cars to be able to ship it to where 
it needs to go.
    Mr. Davis. Ironically I guess----
    Secretary Vilsack. I don't think we are quite--we are close 
but not quite there yet. In talking to farmers, some beans are 
ready, but the corn is not quite where it needs to be.
    Mr. Davis. Well, we have an opposite problem in central 
Illinois. The corn seems to be ready. The beans are a little 
behind. But I just left a T&I hearing ironically on rail 
reauthorization. This was passenger, though.
    Secretary Vilsack. Did you get it done? Oh, no----
    Mr. Davis. Yes. That is why I got--I came back here.
    Secretary Vilsack. We may have to fill some of those cars 
with some corn on the way.
    Mr. Davis. Hey, I don't want to reiterate some of the 
issues that are very important that I know we talked about 
today, and my issue that we talk about often when you are in 
front of this Committee has to do with the School Nutrition 
Program. And my invitation to you still stands to come to 
Illinois and visit with some of the districts that are having 
some concerns and some that have pulled out of the School 
Nutrition Program. And I also want to thank you because a 
representative of your agency is actually going to participate 
in our school lunch summit in Pana, Illinois, at the end of 
this month. So thank you, an invitation for you to come, too, 
if it fits would be on the table also.
    Secretary Vilsack. Congressman, as part of that since you 
have raised it, you should make sure that those school 
districts that are challenged are aware of a program that we 
are putting together with the University of Mississippi to 
provide intensive help and assistance for districts, 
strategies, and mentoring and pairing and basically partnering 
them up with other communities that have successfully 
implemented this. So we are excited about this opportunity to 
reach out to school districts that are challenged and to try to 
figure out ways to make it a little bit better for them.
    Mr. Davis. I would love to have some more information on 
the University of Mississippi----
    Secretary Vilsack. We will get it to you.
    Mr. Davis.--the consulting that they were able to do. I 
would love to send our school districts who are having problems 
with them. And it seems to be growing in Illinois on this 
issue. We just saw the second-largest school district that we 
have in the State of Illinois pull out of the School Nutrition 
Program. It is in Wheeling, Illinois, just north of Chicago in 
the Chicago suburbs where they are giving back upwards of 
$900,000 a year because it is not profitable for them to be 
able to continue to participate.
    Those are the issues that I want you to see on the ground 
and want to continue to work with your Administration, work 
with the USDA to find that flexibility and that sweet spot that 
we know is out there because we all have the same goals. We all 
want to make sure that the kids eat healthier. We all want to 
make sure that the kids actually eat and not waste the food, 
and some small flexibility within the program could be the 
answer. And that is what I want to work with your agency on and 
work with you personally on, Mr. Secretary. And that is what I 
came here to talk about today, and I appreciate your 
willingness to be here. I appreciate your willingness to send 
somebody to address the issues in our district, and I also 
appreciate your willingness to work with institutions like the 
University of Mississippi to try and help schools that are 
hurting. But I also want to urge and counsel you and the 
Administration that it seems this issue has become somewhat of 
a demagoguing issue, more of a political issue, and that is not 
why I am interested. I am interested because I am a parent of 
three teenagers in public school. I am interested because my 
school administrators are the ones that are bringing this up as 
a problem. And I appreciate your willingness to be a 
participant in the debate, too.
    And I don't have any particular question for you. I am 
happy to have any response that you may have and thank you 
again.
    Secretary Vilsack. Well, Congressman, I certainly 
appreciate your heartfelt concern about this, and I know that 
there are some school districts, particularly in rural areas, 
that for a multitude of reasons are challenged, declining 
enrollments, declining state assistance. It does create a 
stress which is why we decided to put this opportunity with the 
University of Mississippi together. The theory behind this is 
that we will be identifying school districts in each region of 
the country that have challenges. We will have them come down 
for a day to 2 day intensive training at the University of 
Mississippi. They have a center for nutrition [the National 
Food Service Management Institute] down there. We will then 
identify school districts of a similar type and nature that 
have successfully, part of the 90+ percent of school districts 
that have embraced this, to help them create some peer-to-peer 
opportunity. And then we have additional grant resources, and 
as we learn about challenges we have been willing to grant 
flexibilities, the wheat pasta as an example, some of the 
breakfast challenges and requirements. And we are seeing more 
resources going into this program in total, about $200 million 
of additional revenue going to schools.
    So we are going to continue to work on it----
    Mr. Davis. Great.
    Secretary Vilsack.--and we are going to continue to try to 
be helpful.
    Mr. Davis. Well, I appreciate that. I know many of my 
school districts are having challenges in the rural areas, but 
the second-largest district in Illinois is not in a rural area. 
It is in Wheeling, Illinois, very suburban Chicago, a wealthier 
district, too. So I look forward to having them work with the 
University of Mississippi, too.
    And also, since we are talking about food and nutrition 
benefits here, the reason I want to make sure that we see your 
continued work on flexibility is because the child that is hurt 
the most when the requirements are less flexible is the child 
that gets his or her only meal of the day at school. And I want 
to make sure that the school has that flexibility to provide 
that healthy meal that we all want that child to meet.
    So thank you. My time has expired, sir, and it is good to 
see you again.
    The Chairman. The gentleman's time has expired. The chair 
now turns to the gentlelady from New Mexico for 5 minutes and 
hopes that we all get rained on this weekend at home.
    Ms. Lujan Grisham. It is one of those mixed blessings, Mr. 
Chairman. We want sufficient rain always to address our 
drought, but we don't want a deluge that then creates watershed 
problems and continued flooding. So I will hope that like the 
bipartisan comments that have been made here today, having a 
lot to do with your leadership, I use this Committee as a 
shining example when I am back home for my constituents that we 
get just enough rain, not too little, not too much.
    And it actually is a great segue, Mr. Chairman, into my 
question. I do appreciate that we are working hard to figure 
out the best way to make sure that we are addressing hunger and 
access to the programs that make a difference but making sure 
that those programs have integrity and accountability. And so I 
am really interested in finding that balance, particularly in 
New Mexico. And while we are seeing the economy improve across 
the country, that is not true everywhere. And while the nation, 
Mr. Secretary, as a whole has seen complete job recovery in 
terms of the jobs lost as a result of the recession, that is 
not true in New Mexico. In fact, we have job losses just above 
four percent still, and in the heart of my district, 
Albuquerque, we are still in a double-dip recession. And I know 
that you are fully aware, and I appreciate that, and that the 
whole Department is clear that we are number one in the country 
for hungry children, and we are number two in the country for 
hungry adults, issues I am very concerned about and working 
diligently to address.
    New Mexico is interested in the pilot and is a state that 
has long sought after the waiver for work requirements given 
these conditions. We had our Human Services Secretary before 
one of our Subcommittees, and the Secretary has made it very 
clear in her statements, her leadership, and in this 
Administration, positions I don't agree with and that is okay. 
But the State of New Mexico has made it very clear that these 
benefits, these entitlements or programs, to alleviate hunger, 
are nothing more than a transfer of resources from people who 
pay taxes to people who don't. This bias, on the state level, 
creates real issues including that we have considerable backlog 
in applications requiring court orders. I use that in a plural, 
and those debates continue.
    So what I want to talk about is that poverty must be 
addressed in my state. I absolutely want people to have access 
to meaningful employment. We absolutely want able-bodied 
individuals and families to have access to success. But to 
penalize children and adults who are currently the hungriest in 
the country, is exactly what will happen if a state like New 
Mexico isn't careful about finding a balance.
    Can you talk to me about how you are going to evaluate 
these states, what you are going to do to make them 
accountable, and be clear that the intended purposes for your 
pilots are met and that states with a philosophical difference 
to these pilots would not be allowed to manipulate them in 
order to stop, say, the distribution of SNAP and food stamp 
benefits?
    Secretary Vilsack. Congresswoman, I think it starts this 
afternoon at approximately 1:30 when I will speak to Governor 
Martinez about this very issue. I have a phone call scheduled 
with her to talk about the pilot and to talk about how New 
Mexico potentially could be involved in this effort.
    I would say first and foremost, the application process is 
pretty clear that there is going to be a requirement that data 
be collected, that there be a serious evaluation of programs, 
that there will be some accountability if programs don't meet 
the goals outlined in the application. We reserve the right to 
basically stop the pilot. This is not designed to be a punitive 
effort. This is designed to be an incentive-driven effort in 
the hopes that we identify the best practices that then can be 
utilized by us to do a better job on the regular program. As I 
have said several times today, we really have to do a better 
job, we, the collective we, have to do a better job on this 
employment and training effort in SNAP to really connect the 
people that are looking for work, want to work, would love to 
work, but are having a hard time finding a job, having the 
skills to get the jobs that are in demand. And for those who 
currently are working, maybe we get them a better-paying job so 
they don't need as many benefits or any benefits at all.
    Ms. Lujan Grisham. And to that end, Mr. Secretary, is it 
possible, in not doing sufficient research before this 
Committee hearing, to identify what your authority is? But it 
appears to me that before a state like New Mexico ought to even 
be invited to prepare a pilot, they ought to assure you that 
the current requirements are being met. And, this must include 
assurance that the backlog is addressed. For now, this has been 
done by local advocates and partners because there is no 
accountability support outside of the state. And it appears to 
me that accountability would be a very vital role for USDA. I 
would like your assurance, based on your independent review of 
the state, to make sure we are addressing hunger in New Mexico.
    Secretary Vilsack. I can assure you, Congresswoman, that we 
take very seriously the responsibilities of states to actually 
make this program available to people and not to create 
unnecessary or undue barriers to participation.
    When I became Secretary, there were a number of states that 
were under-performing in terms of eligibility. There were 
states that had less than 50 percent of eligible people 
actually participating in the program. Today our participation 
rate is 83 percent, and obviously, we are sensitive to the need 
to get people who are eligible and entitled to the program the 
assistance they need. At the same time, we are cognizant of the 
fact of the need to do a better job of creating opportunities 
for people who can work to work which reduces the reliance of 
the program which is--that is what we ought to be doing.
    Ms. Lujan Grisham. Thank you.
    The Chairman. The gentlelady's time has expired.
    Ms. Lujan Grisham. Thank you, Mr. Chairman. I yield back.
    The Chairman. The chair would note to the membership that 
the Secretary needs to depart at noon. That is 20 minutes. We 
have three more Members. If we maintain our present number, we 
will continue the 5 minute rule. If we have a whole number of 
Members, we may discuss shortening that to allow everyone a 
chance. With that, the chair recognizes the gentleman from 
Florida, Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman, and I too would like to 
say how much I appreciate your leadership on this Committee, 
your bipartisan support and your stellar effort to get the farm 
bill passed and your statesmanship out there on the Floor. It 
was the highlight of my first year in Congress, and I 
appreciate your leadership. Mr. Vilsack, I appreciate you 
leading the USDA.
    One of the things that has come up several times is the 
integrity of the program for the SNAP program. Mr. Conaway 
brought it up, Mr. Scott, Ms. Lujan Grisham, and myself have 
personally seen people abusing the system or making poor 
choices. I was back in the district right before we came back, 
and this young fellow came in to a Jiffy Store. He was buying 
gas, a six-pack of beer, cigarettes, and he bought a sandwich 
with his food stamps, and then he pulls out cash to pay for the 
other things and lottery tickets. And that is the kind of thing 
that ruins the integrity of the program because the working 
person out there, as Mr. Scott says, we see hard-working people 
paying their taxes and those things going on. And it just kind 
of erodes the faith of the American people. And I know we are 
working on it. We can't stop all that. But I felt like I should 
bring that up because I see that often.
    What I would like to bring up is you stated there are many 
different segments of SNAP. What is your goal, to reform, 
refine, streamline the SNAP Program, and what is that time 
period? I mean, if you could ultimately pick a program where it 
doesn't have so many segments to it. Can you streamline it?
    Secretary Vilsack. Well, Congressman, we are engaged and 
involved in trying to figure out ways to streamline processes 
at USDA. Each mission area has a requirement that I have 
imposed to have two process improvement programs in place in an 
effort to try to save time and save resources. It is part of 
our administrative services process. We have already identified 
over a billion dollars in savings.
    I can't speak specifically to efforts relating to SNAP, but 
I would be more than happy to let you see what we are doing in 
the process improvement area to assure you that we are focused 
on this.
    But I also want to say that we take our responsibility on 
fraud and abuse very seriously. Over 700,000 individual 
interviews and investigations were conducted in Fiscal Year 
2013. We took a look at thousands of stores who we felt as a 
result of the data mining that we do might not be playing by 
the rules. Nearly 2,000 were either disqualified from 
participation in the program or sanctioned as a result of that 
review on an annual basis.
    We have the lowest fraud and error rate in the history of 
the program. There is still work to be done. That is why we 
have proposed a series of measures to increase the number of 
inspectors and auditors and investigators at USDA. It is also a 
reason why we suggested a change of stores that qualify, the 
qualification standards, in terms of the kinds of foods that 
they sell. We know that a lot of problems occur not in the 
large scale chain grocery store----
    Mr. Yoho. Right.
    Secretary Vilsack.--but in a lot of those convenience 
stores. So we are taking that accountability responsibility 
seriously, and we will continue to work on that.
    Mr. Yoho. Okay. That is good to know, and I appreciate 
that. How does this pilot program differ from the TANF reforms 
that were made in 1996 and implemented in--was July 1 of 1997?
    Secretary Vilsack. Well, this program is really designed to 
sort of be like a Match.com. There are people out there that 
are capable of working, that want to work, or that are 
currently working that would like to work better-paying jobs. 
They just are having a hard time figuring out how to do that. 
And then there is the responsibility that we have to try to 
provide help and assistance.
    And so what this is designed to do is to say to states and 
local nonprofits and so forth, be creative. Figure out ways in 
which we can create that connection. Figure out ways in which 
we can improve job searching skills. Improve basic skills so 
that people understand when they have to come to work at 8:00, 
it means they have to be there 5 minutes to 8:00, et cetera.
    So it is really designed to create that connection to 
reduce the number of people needing SNAP because they have a 
job or a better paying job.
    Mr. Yoho. Okay. And that is good to know also. Can other 
states opt into this pilot program over the ten-state 
allotment? If you are seeing this successful, can we roll other 
states into this?
    Secretary Vilsack. Well, if you give us the permission to 
do that we can.
    Mr. Yoho. Okay.
    Secretary Vilsack. Right now with the tough evaluation 
process, we really do want to identify best practices, and the 
hope is that by identifying these best practices we can then 
basically expand those in the basic program, the E&T program to 
eventually all 50 states. That is the whole purpose of this is 
to figure out what works and then to say to other states, 
``This works. Try it.''
    Mr. Yoho. Okay. I have one other question, but I am out of 
time. I will get it to you and I appreciate your being here. 
Thank you. I yield back.
    The Chairman. The gentleman yields back. The chair now 
recognizes the gentleman from Connecticut, Mr. Courtney, for 5 
minutes.
    Mr. Courtney. Mr. Chairman, like the others, I want to 
salute you. Over the last 4 years I have sat on this Committee 
and watched your extraordinary deft touch as Chairman, trying 
to navigate a very challenging piece of legislation, and I want 
you to know that even in New England, you have a fan club. 
Whenever I go to the Connecticut Farm Bureau, they speak of you 
very reverentially. So your reputation is wide and far.
    Mr. Secretary, I appreciate the comments you made earlier 
about the fact that the best way to reduce food stamp 
expenditures is to increase employment and earnings. That is 
the path that we know, and the good news is CBO (Congressional 
Budget Office) is already starting to signal that we have sort 
of hit the tipping point, and if this recovery can be nurtured 
and grown, that expenditure is going to fall for USDA.
    First of all, I want to note that increasing earnings would 
also reduce expenditures. CBO has indicated that if we would 
actually pass the minimum wage bill, there is an estimate in 
terms of the billions of savings for the taxpayer. And it is 
unfortunate that there is a bill that has a discharge petition 
with close to 200 signatures in the House, yet it can't get a 
vote.
    The other question I want to ask you is regarding the 
Workforce Opportunity and Investment Act, that the President 
signed in July. As you know, this is updating of the Job 
Training Program, which hasn't been changed since Bill Clinton 
was President. I know Secretary Perez is hard at work in terms 
of getting the opportunities out there for workforce investment 
boards, employers, states, to take advantage of what is going 
to be a much smarter program in terms of connecting people to 
openings that are out there.
    So I realize you just started the wheels turning. But, can 
you tell me if a state or a group that wanted to pursue a pilot 
program, is there anything that obstructs them or blocks them 
from incorporating some of the--components that the Department 
of Labor is now starting to promote?
    Secretary Vilsack. No, in fact, Congressman, we are 
encouraging that. In working with Secretary Perez, there are 
several elements of the application process and criteria that 
speaks specifically to the work that they are doing to try to 
dovetail and to integrate. I think that Congress was fairly 
clear. They wanted us to work collaboratively at the Federal 
level with sister agencies. They wanted us to work 
collaboratively with state governments and local governments 
and nonprofits, anybody who was interested in trying to make 
the connection. I would say that I would certainly agree with 
you on the minimum wage issue. It is 3.6 million folks who 
would not need SNAP or as much SNAP if the minimum wage were 
increased.
    And we are focused despite the fact we had 54 months of 
private sector job growth, a record. The long-term unemployed 
still continue to be a problem, and those are precisely the 
people that we are likely to get connected here in this 
employment and training effort. That is certainly going to be a 
focus.
    Mr. Courtney. Thank you. You know, this morning in The Day 
(formerly The New London Day) which is the paper of record for 
New London County, the unemployment rate is still 6.8 percent, 
but the headline was: Good Help is Harder to Find. And it 
talked about how employers now, as opposed to a year or 2 years 
ago, there are openings. They are not getting 100 applicants, 
they are getting maybe a dozen at most. And again, trying to 
connect people to those openings is now becoming more and more 
of a challenge.
    Secretary Vilsack. And what I hope from this is that the 
folks in the Human Services Department in the State of 
Connecticut speak to and communicate with the Workforce 
Development folks. Right now I don't think enough of that 
happens at the state level because these folks over here know 
who the SNAP beneficiaries are, and these folks over here know 
where the jobs are. They don't necessarily talk to one another. 
If they did, we would make better connections. So that is part 
of what we are going to try to encourage is more collaboration 
within departments, within states as well.
    Mr. Courtney. I think that would be a good message for all 
of us, all the Members, to take back to their states, both with 
the Agricultural Act of 2014 and the Workforce Opportunity and 
Investment Act, there is some good synergy that can accelerate 
the recovery.
    With that, I yield back.
    The Chairman. The gentleman yields back. The chair now 
recognizes the gentlelady from Illinois for 5 minutes.
    Mrs. Bustos. Thank you, Mr. Chairman. Since this is likely 
our last hearing that we will have during this Congressional 
session, I too want to thank the Chairman and the Ranking 
Member for your hard work. It has been a pleasure to work with 
folks who understand the importance of working together, and I 
personally want to thank the Secretary for coming to my 
district on Monday. It was, I thought, a great session with our 
farmers, and I want to thank you for taking the time to come.
    I apologize in advance if any of these questions were 
asked. I just have a couple. I was in another hearing for 
another committee I am on, but it is my understanding that you 
will be partnering with states and local workforce boards and 
also local nonprofits. But will the pilots be working directly 
with local employers and also with local educational 
institutions such as community colleges as we move forward on 
this? Or is that just up to what the pilots end up applying 
for?
    Secretary Vilsack. There is nothing to discourage that, and 
probably there is a lot to encourage that. That is precisely 
what we want to see is that collaboration at all levels. And so 
obviously that would be a factor in strengthening an 
application if we saw a significant collaboration at the local 
level.
    Mrs. Bustos. And as it pertains to encouraging different 
components of the pilot programs, something I hear all over our 
Congressional district when I am home is the importance of 
affordable childcare for people to go back to work. Will there 
also be any components to encourage childcare as part of these 
pilot programs? Anything that the USDA can do to help have that 
part of the equation as we talk about this, going forward?
    Secretary Vilsack. There would be the capacity for that 
element and other elements similar to that--transportation 
issues--to be addressed in pilot, and proposed, in terms of 
utilization of some of the resources for the benefit of 
reducing those barriers. Bottom line is a better understanding 
of what those barriers are and a better understanding of how 
best to address the barriers. That is part of what we hope to 
be able to get from these applications.
    Mrs. Bustos. Okay, and then last, you were just in our 
district so you understand the rural nature of it. We have 
pockets of a little bit more urban areas, but I represent 
mostly a rural district. So as the pilot applications come in, 
do you consider kind of the disparities and to make sure we 
have, geographically, a good representation in these pilot 
programs.
    Secretary Vilsack. That is absolutely part of what we will 
consider, and I can assure you that we will have a good 
representation of both urban, suburban, and rural areas so that 
we can identify best practices for all states. Every state has 
a rural area, and some states obviously are more rural than 
others. But at the end of the day, a lot of the unemployment 
challenges, a lot of the SNAP challenges are in those small, 
rural areas where unemployment is higher and long-term 
unemployment is more severe and poverty is more persistent. So 
clearly we are going to be focused on making sure we address 
the rural challenges. And again, if we can identify best 
practices, things already at work, then hopefully we can 
replicate that in other states and bring these SNAP numbers 
down.
    Mrs. Bustos. Okay. Very good, I look forward to seeing how 
this all unfolds as we move forward, and I want to thank you 
for your time today. I yield back, Mr. Chairman.
    The Chairman. The gentlelady yields back. Seeing no other 
Members seeing recognition for a question, the chair would 
simply like to note once again to the Secretary, thank you for 
being here, your insights, and your appreciation for how 
important the Committee views this endeavor to be.
    And with that, I thank all of my colleagues for their 
attention, and under the rules of the Committee, the record for 
today's hearing will remain open for 10 calendar days to 
receive additional material and supplemental written responses 
from the witness to any questions posed by a Member. This full 
Committee hearing is now adjourned.
    [Whereupon, at 11:52 a.m., the Committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
 Submitted Statement of Hon. Steve Southerland II, a Representative in 
                         Congress from Florida
    I would like to thank Chairman Lucas and Ranking Member Peterson 
for holding this important hearing on the implementation of the 
bipartisan pilot projects passed in this year's farm bill. These 
projects, aimed at enabling struggling Americans to advance toward 
work, are based on the proven success of the 1996 welfare reform law. 
The testimony of U.S. Secretary of Agriculture Tom Vilsack, which noted 
``we want to help people move towards self-sufficiency the right way by 
helping them to secure and maintain jobs,'' is also appreciated.
    The farm bill empowered ten states to operate pilot projects to 
engage able-bodied adults in TANF-style work and job training programs 
with the goal of reducing government dependency and returning 
individuals to work. Similar demonstration projects were instrumental 
in the years leading up to the landmark 1996 welfare reform law. As we 
all know, the law was highly successful, resulting in increased 
earnings for beneficiaries and reducing welfare caseloads by more than 
\2/3\ over 10 years. Welfare reform was also responsible for bringing 
child poverty to an all-time low.
    Consequently, I was honored that an amendment I offered to the farm 
bill helped set the stage for implementation of these pilot projects. 
We know what works and must continue to promote work and self-
sufficiency as the ultimate goal.
    As the U.S. Department of Agriculture implements this pilot 
program, it is critical that the agency adhere to the intent of 
Congress and reflect the statutory language in its selection process. 
This includes testing a range of strategies, a broad spectrum of 
geographic regions, rapid attachment to employment, and mandatory as 
well as voluntary participation in employment activities.
    Thank you again and I appreciate the House Agriculture Committee's 
and Secretary of Agriculture's attention to this important pilot 
project to improve the lives of vulnerable Americans.
                                 ______
                                 
                          Submitted Questions
Questions Submitted by Hon. Gloria Negrete McLeod, a Representative in 
        Congress from California
Response from Hon. Thomas ``Tom'' J. Vilsack, Secretary, U.S. 
        Department of Agriculture *
---------------------------------------------------------------------------
    * There was no response from the witness by the time this hearing 
went to press.
---------------------------------------------------------------------------
    Question 1. How much is the Federal investment in E&T without the 
incentive grants and what are you doing to prioritize the use of the 
funds in communities with the highest unemployment, like San Bernardino 
County?

    Question 2. Even when there is investments of E&T dollars in high 
unemployment areas, E&T can't really place people in jobs that aren't 
there, correct? Can you speak to why SNAP eligibility is essential for 
families and communities with long-term unemployment?

    Question 3. It is my understanding that most SNAP recipients are 
children and that the adults who receive aid and can work, do work, but 
the wages they receive for their work are too low and they remain under 
poverty. Is there anything that a SNAP E&T Program can do--that is 
scalable--to change this dynamic?

    Question 4. My public housing authority in San Bernardino County is 
a Moving to Work Agency. The primary goal of the Moving to Work program 
is to help public housing residents become more self-sufficient. 
Consequently, our housing authority has implemented work requirements 
and they are continuing to provide robust supportive services for 
residents. These residents are also usually receiving some form of food 
assistance. Do you see some synergy working with Moving to Work 
Agencies like the one in San Bernardino County? What do you think is 
the best way to help MTW agencies that are using some of their HUD 
money on workforce development efforts to also leverage that money with 
funds USDA has available to encourage work requirements?

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
